<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION BILL: LAYING THE FOUNDATION FOR U.S. ECONOMIC GROWTH AND JOB CREATION, PART 1</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                 SURFACE TRANSPORTATION REAUTHORIZATION
                  BILL: LAYING THE FOUNDATION FOR U.S.
                   ECONOMIC GROWTH AND JOB CREATION,
                                 PART 1

=======================================================================

                                (114-5)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                                ____________
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
93-258 PDF                      WASHINGTON : 2015                        
        
_______________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  
   
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Hon. Anthony R. Foxx, Secretary, U.S. Department of 
  Transportation:

    Testimony....................................................     3
    Prepared statement...........................................    62
    Responses to questions for the record from the following 
      Representatives and Delegate:

        Hon. Bill Shuster, of Pennsylvania.......................    68
        Hon. Sam Graves, of Missouri.............................    70
        Hon. Lee M. Zeldin, of New York..........................    77
        Hon. Frank A. LoBiondo, of New Jersey....................    78
        Hon. Don Young, of Alaska................................    79
        Hon. Carlos Curbelo, of Florida..........................    81
        Hon. Lou Barletta, of Pennsylvania.......................    83
        Hon. Peter A. DeFazio, of Oregon.........................    85
        Hon. Eleanor Holmes Norton, of the District of Columbia.. 


        Hon. Daniel Lipinski, of Illinois........................    86

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Sam Graves, of Missouri.....................................    56
Hon. Corrine Brown, of Florida...................................    57

                       SUBMISSIONS FOR THE RECORD

Hon. Anthony R. Foxx, Secretary, U.S. Department of 
  Transportation, response to request for information from Hon. 
  Richard L. Hanna, a Representative in Congress from the State 
  of New York....................................................    13

                        ADDITIONS TO THE RECORD

James Toscas, President and Chief Executive Officer, Portland 
  Cement Association, written statement..........................    99
 


  SURFACE TRANSPORTATION REAUTHORIZATION BILL: LAYING THE FOUNDATION FOR 
             U.S. ECONOMIC GROWTH AND JOB CREATION, PART 1

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. I want to 
welcome everybody here to today's hearing, and welcome our 
distinguished witness, the Honorable Anthony Foxx, Secretary of 
Transportation. I was concerned he was going to get caught up 
in the congestion of Washington, DC, but he made it on time. So 
that is good news.
    This is our first hearing of the year on surface 
transportation reauthorization, one of our top priorities of 
this committee, and I believe it is one of the top priorities 
of this Congress, and it rightly should be.
    We are actively working together with Ranking Member 
DeFazio and our colleagues on the other side of the aisle for 
this committee to write a bill that is good for America. I am 
confident that, working with leaders in the House and the 
Senate, and the Ways and Means Committee, and others, we can 
figure out our funding issues.
    By passing a good bill, we can ensure America's quality of 
life, and facilitate economic growth for years to come. So I 
look forward to hearing from Secretary Foxx about the 
importance of this legislation, and now call on Ranking Member 
DeFazio.
    Mr. DeFazio. Well, thank you, Mr. Chairman. Mr. Secretary, 
welcome. Thank you for being here today. Thanks for holding 
this hearing.
    Mr. Chairman, I feel a tremendous sense of urgency. I know 
we are working toward a long-term authorization, and we have 
substantial goals in common there. But the May 31st deadline 
really is of concern to me. We have already had States--for 
instance, Tennessee and Arkansas--say that they are going to 
either postpone or cancel projects for this construction 
season.
    You know, other States are looking at the same problem. 
Fifty-two percent of the total outlays in States are due to 
Federal contributions, and in 11 States it is 70 percent or 
more. So we are looking at grinding to a halt pretty quick. I 
mean it is coming on construction season very, very soon.
    We know the total need. The bridges--if we have the bridge 
slide--there was a wonderful graphic that the Washington Post 
put together. This is the bridge problem in America. You know, 
I have thought for years maybe we could get the public's 
attention if we had to post every bridge that is either 
structurally deficient or functionally obsolete with a sign 
that says, ``Caution: You are about to drive over a bridge that 
is structurally deficient or functionally obsolete.'' But look 
at the magnitude of this problem. That is good. Thanks, Helena.
    So, that is what we need to address in the long-term bill--
147,000 bridges; transit has an $86 billion backlog. I was 
hoping that Secretary didn't come on transit, because that is 
breaking down, and sometimes even causing accidents that are 
killing people. We need massive investment there. And then our 
highway system also needs this sort of investment. We are 
falling behind the rest of the world.
    I often would refer to the U.S. in speeches that I give 
about this as becoming third world. And our colleague, Mr. 
Blumenauer called me after his speech and said, ``That is very 
insulting.''
    I said, ``Well, you know the depth and the breadth of the 
problem.''
    He said, ``Yes. No, it is insulting to third-world 
countries, because they are spending a higher percentage of 
their GDP on transportation, infrastructure investments, than 
the United States of America.''
    So, I have taken to calling us fourth world. We had led the 
world, post-World War II. Now we are vaulting to the rear of 
the pack by allowing our legacy system, the Eisenhower system, 
the 20th-century system, to fall apart. And we have not put 
forward the resources or the policies to begin to build a 21st-
century system, and that is why we are here today, to hear the 
ideas of Secretary Foxx, and begin this process.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. DeFazio. And if most folks took 
notice to that, Pennsylvania is the worst of the worst up there 
with bridges, more deficient bridges than anybody. And, to Mr. 
DeFazio's point----
    Mr. DeFazio. Well, it is----
    Mr. Shuster. Well, the center is Republican. Philadelphia 
and Pittsburgh are blue.
    But to Mr. DeFazio's point, Pennsylvania did not solve its 
funding problem until they started to post bridges. And when 
they started to post bridges and close bridges, so people had 
to go miles out of their way, that is when everybody started to 
get serious. So----
    Mr. DeFazio. Could we then discuss the mandatory idea of 
posting every bridge----
    Mr. Shuster. We can discuss everything you want, Mr. 
DeFazio.
    [Laughter.]
    Mr. Shuster. Again, I ask unanimous consent that our 
witness's full statement be included in the record.
    [No response.]
    Mr. Shuster. Without objection, so ordered.
    Mr. Secretary, since you are the only show in town today, 
don't be constrained by the 5-minute clock. If you feel you 
need to talk more, we are happy to listen to you, because, 
again, we are glad you are here today, excited to hear from 
you.
    And, with that, I would like to call on Mr. Meadows to 
introduce the Secretary.
    Mr. Meadows. Thank you, Mr. Chairman. It is a pleasure to 
welcome my good friend to the committee. And I say that because 
many of us have been here when you were confirmed. And 
certainly, with great expectations, as being a proud North 
Carolinian, we were honored with your appointment, and it came 
with great expectation. And I will--in a very bipartisan way, 
you have not disappointed.
    I want to just say thank you so much for your work, for 
your dedication, for your commitment to make sure that the 
infrastructure that commerce needs and the people of this great 
country need is funded. You have always been open, you have 
been willing to work with us and explore every option.
    So, I thank you for your commitment to work with this 
committee, and with the chairman, specifically.
    The little fun fact that I would like to talk about--I 
always try to find a fun fact--it is good to know that, during 
the State of the Union Address, that you were designated as the 
designated survivor that, in case of a major event, you would 
have had everything under your control.
    So, welcome, Mr. Secretary. It is an honor to have you.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank you, Mr. Meadows. And, with that, I 
recognize the Secretary.

 TESTIMONY OF HON. ANTHONY R. FOXX, SECRETARY, U.S. DEPARTMENT 
                       OF TRANSPORTATION

    Secretary Foxx. Mr. Chairman and Ranking Member DeFazio, 
and to my good friend from North Carolina, Representative 
Meadows, I want to say thank you for having me here today, as 
well as to the entire committee.
    One thing about being a designated survivor is that I had 
plenty of time to think about these issues during the State of 
the Union. And, Mr. Chairman and members of the committee, it 
is February. This is a month in which we typically celebrate 
Groundhog Day. And I am told that groundhogs all across America 
did something unusual this year; they did predict the weather, 
predicting that the winter will last 6 weeks longer. But they 
also predicted this year that Congress will pass a 6-year 
surface transportation bill.
    [Laughter.]
    Secretary Foxx. So I am really excited about that.
    Seriously, it does feel a bit like Groundhog Day. Over the 
past year, I have been to 41 States, and more than 100 
communities all across America. And every place I go, I see the 
same thing over and over again, a community that has a to-do 
list, and the list is longer this year than it was last year. 
And those lists have been growing over many, many years.
    Meanwhile, here in Washington, we are doing less and less 
to help. So I want to crystalize the three basic problems I 
believe a transportation bill can help us fix.
    First, we need to take better care of the system we have. 
The Brent Spence Bridge is not the only bridge in America that 
needs to be replaced or repaired. One-quarter of our Nation's 
bridges are in similar shape. But it is a good example. The 
Brent Spence Bridge connects Kentucky and Ohio. It is more than 
50 years old, and is carrying more than twice the traffic it 
was designed for. Concrete is now falling from the bridge's 
ramps onto cars parked below. There is no money to fix it, not 
the Brent Spence Bridge, and not thousands of other bridges 
like it across the country.
    In fact, just last night we got news about a structurally 
deficient bridge on the Maryland side of the Capital Beltway. 
Concrete started falling and fell on the roadway below, badly 
damaging a car passing through. Fortunately, this time, the 
driver survived. But make no mistake; infrastructure and 
disrepair has the potential to harm and kill. Our country is 
too great to allow our infrastructure to fall apart. We must do 
something.
    Second, aside from tackling deferred maintenance, we need 
to build new things again. Our Nation is growing by 70 million 
people over the next 30 years. That growth is coming largely in 
the south and western parts of our country. And we will choke 
on that growth if we are not careful. That is why, when we hear 
the State DOT secretary in fast-growing Tennessee say he is 
canceling $400 million in projects due to funding uncertainty 
here in Washington, we should all be concerned.
    The same is true when we hear about Arkansas, which just 
postponed 3 projects on top of the 15 projects that were 
postponed in 2014. At a time when we should be building more, 
we are building less. We need to do something.
    Finally, we need to make sure that the transportation 
system is smarter, more efficient, and more effective. That is 
why DOT sent you the GROW AMERICA Act last year. The GROW 
AMERICA Act includes--and I think many of you will agree with 
me--tools to ensure that we are better stewards of taxpayer 
dollars. Among other policy proposals, such as those that would 
have enhanced safety, the GROW AMERICA Act would have cut 
redtape and streamlined the permitting process. That way we can 
get projects done faster, and remove barriers to private 
investment, and do so in a way that does not compromise the 
environment.
    We need those dollars to help tackle our infrastructure 
deficit. Creating capacity through more efficiency is another 
way to help us get there. Every dollar saved due to reduced 
delay creates more capacity in the system. And, again, there is 
more we can do on that front.
    All three of these components--fixing what we have, 
building more, and being smarter and more efficient--work 
together. It is a package deal. But here is the other point I 
want to make today. In many ways, it is the most important 
point. We could be 1,000 times more efficient. But the 
fundamental way the Government has been investing will still 
fall short of meeting our needs if we don't invest more.
    As the State DOT director in Arkansas said, ``The Federal 
Government is putting States in a real bind.'' That is because, 
over the last 6 years, Congress has funded our transportation 
system with 32 short-term measures, including the latest one, 
which will expire this May, right at the beginning of 
construction season.
    My guess is that there are State DOTs right now today that 
are scanning their project lists over the next few months, in 
trying to figure out which projects they can do, and which ones 
they will have to cut off. Instead of saying, ``Build, build, 
build,'' Congress has been saying, ``Stop.'' Not just in 
Tennessee, not just in Arkansas, but across America.
    So, here is what we plan to do. In the coming weeks we will 
introduce a new and improved GROW AMERICA Act, one that 
provides 6 years of funding, and more of it, for the system we 
need. The system needs us to stop budgeting to numbers. We need 
to budget for results. The Highway Trust Fund balance is a 
number. It is not an outcome. Studies show, from CBO to 
industry groups, to our own study and research at DOT, that 
merely replenishing the Highway Trust Fund will keep us at a 
funding level that falls short of meeting even our maintenance 
needs.
    Meeting basic maintenance, even if we did that, does 
nothing to meet the needs of a growing Nation, in terms of new 
capacity. That is why the new GROW AMERICA Act will increase 
surface transportation investment to the tune of $487 billion 
over 6 years.
    Now, $487 billion sounds like enough to choke a horse, as 
we say in North Carolina. But against what we need, it is not 
such a big number. It is doable. And keep in mind that others 
are calling for far, far more than we are. We have also 
hammered way down on the pay-for through pro-growth business 
tax reform.
    So, today I say, ``Let's play to win as a country again. 
Let's get back in the transportation business in a significant 
way.'' And, to do so, we need you to set the ceiling, not the 
floor. I believe this committee, on a bipartisan basis, can do 
that. I believe this committee can produce a bill that is truly 
transformative, and that brings our country together.
    So, I look forward to working with all of you, and I am 
looking forward to your questions.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Secretary. We appreciate the 
testimony.
    And one of the things you said that really stuck out there 
was budget for results. And I think that is what we need to do. 
When you hear both sides of the aisle, both sides of the 
Capitol, both ends of Pennsylvania Avenue, everybody is talking 
about a long-term bill, and across America. I am happy to say--
not for good reasons, necessarily, but happy to say, every time 
I turn the TV on, or open up the newspaper, people are writing 
stories about the need to invest in our infrastructure. So 
budgeting for results, I think, is key to that.
    There are many out there that say, ``Oh, we spend enough 
and, you know, we are not getting the best bang for our buck,'' 
which, in some cases, that may be true. But I tend to side with 
you on, you know, we need to build things, because we are 
headed towards that 400 million population in the future.
    So, my question to you is, I know that you have done a 
lookout 30 years, and know what we need to do. So, in this bill 
coming up, what are some of the things that you might recommend 
that we do to speed up the process, and give States more 
flexibility to be able to move these projects forward?
    Because, as I travel the country time and time again, you 
see these projects that take so long. And I was--a couple of 
days ago, in a place where they had a project that was a $180 
million project. That was 5 years ago. Now it is $230 million, 
and it is because we go through this process that it takes so 
long.
    So, again, looking out in your crystal ball 30 years, and 
the study you have done, what are some of the things that you 
might recommend to us? And what are some of the things you 
might recommend to give the States the flexibility so they can 
move forward?
    And I will say this again publicly. You know, one of the 
things that impresses me most about you, and the experience you 
have, most important I think, is being a big-city mayor, and so 
you have dealt with every crappy Federal program that we have 
sent out there, and you understand, firsthand, how we need to 
streamline. So ``crappy'' is a technical term here in the 
Committee on Transportation and Infrastructure.
    [Laughter.]
    Mr. Shuster. So, Mr. Secretary, please.
    Secretary Foxx. Yes, Mr. Chairman. I have had many of those 
sandwiches.
    [Laughter.]
    Secretary Foxx. Let me offer a couple of thoughts. First of 
all, just to set the premise, we did this Beyond Traffic survey 
to look at the system. What is the system doing for us now? 
What does it need to do for us down the road?
    Some of the facts are pretty compelling: We are going to 
see a 60-percent increase in truck traffic over the next 30 
years. We are going to have 70 million more people, all of whom 
are going to be trying to get from one place to another. We are 
going to find that many of our freight networks across the 
country that are congested today are likely to get more 
congested, unless there is some relief.
    So, when you ask about speeding up projects, I think that 
is a critically important issue, because it goes to public 
confidence, and it also goes to saving resources and getting 
more out of what we spend.
    We think there are a couple of things we can do in that 
vein. First, we should try to operationalize some of the 
lessons we have learned from our concurrent review processes at 
DOT. Over the last several years, following the Recovery Act, 
there was an effort to put some national projects up on a 
dashboard. We put interagency teams together to review the 
permitting associated with those projects. It was, like, 50 
projects. We did the permitting reviews all at the same table. 
We were able to get those reviews done in a much shorter time.
    The Tappan Zee Bridge in New York, for instance, had about 
3 to 5 years of permitting baked into it from the beginning. We 
were able to get it done in 18 months, using that method. The 
good thing about it is that it doesn't jeopardize the equities 
of any of those issues, it just front-ends the conversation 
about permitting. So we think we can operationalize that. That 
was suggested in the last GROW AMERICA Act. And it is another 
issue I think we can work together on.
    Another issue on permitting is the fact that, even within 
DOT, we sometimes have duplicative permitting requirements. For 
instance, if there is a bridge that has a transit project on 
it, both environmental reviews have to be done under current 
law. We think there should be a way to consolidate those 
studies so that only one is necessary.
    On the issue of State flexibility, we have had good success 
with programs like the TIGER program. And I think that if we 
had some dedicated programs such as a freight program that was 
a similar competition among States, it would free the States up 
to actually start planning and doing major projects of scale 
that will help us relieve congestion in our freight areas. So 
that is an example of where I think we can go.
    Mr. Shuster. Thank you. With that, I will recognize Mr. 
DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Secretary, thank 
you.
    I would observe that the additional funding you are 
proposing would put us right at the point--if the gas tax had 
been indexed over time for construction cost inflation, that is 
about the amount of money we would collect this year. So it 
isn't some major--I mean it is obviously a major investment, 
but it is really kind of the path that we should have been on 
all along.
    Now, we aren't going to see mandatory repatriation, 
probably, out of this Congress; the Republicans don't support 
it. And we are not going to see it by May 31st. So do we have a 
backup plan, or a short-term proposal on how we are going to 
get through the next construction season? Anything that might 
relate to existing user fees and some sort of adjustment to 
those, or any other proposal?
    Secretary Foxx. Well, I have to say that, in terms of the 
pay-for we have suggested, we have put our cards on the table. 
We very openly said to Congress that, if there are other ideas 
that emerge, we are willing to hear those ideas and consider 
them. We haven't taken any other pay-for off the table. And, to 
my knowledge, we will not.
    Mr. DeFazio. OK. I thought I had seen a statement from 
someone at the White House fairly recently where they didn't 
support an increase in the gas tax.
    Secretary Foxx. Well, we support our proposal, but we----
    Mr. DeFazio. No, I am just saying--just say Congress looked 
at indexing the gas tax, or, you know, maybe some on the Senate 
side, Republicans have proposed an increase in the gas tax. You 
know, don't hear that much on this side, except what has been 
introduced. Or I proposed a barrel tax. I mean are those things 
all potentially possible with this administration?
    Secretary Foxx. We are all ears.
    Mr. DeFazio. OK.
    Secretary Foxx. But I think what we have got to focus on is 
the fact that we do have time limitations here, and we do think 
our proposal is practical.
    Mr. DeFazio. Right.
    Secretary Foxx. There is bipartisan interest in going 
towards----
    Mr. DeFazio. Right, but--I understand. But there is a big 
difference between, you know, the kind of repatriation we did 
before, which lost money, which is what is generally supported 
by the Republicans, and mandatory repatriation and actually 
overt taxation of overseas assets, which the administration 
supports, which, I have got to tell you, I am afraid is a 
nonstarter with this Congress, you know. I would be happy to 
support something like that along those lines, but the other 
side of the aisle won't.
    So, I am just saying--you know, you are Secretary of 
Transportation. When is it going to be, if we don't have 
funding in place by the end of May, when will you notify States 
that you are going to slow down reimbursements?
    Secretary Foxx. Well, I am hearing differently about the 
business tax reform, but that is a political question----
    Mr. DeFazio. Sure.
    Secretary Foxx [continuing]. And we are happy to----
    Mr. DeFazio. It isn't even this committee's jurisdiction.
    Secretary Foxx. But we will probably do as we did in the 
last crisis. After May we will be watching very carefully the 
fund balance in the Highway Trust Fund. We expect that at 
current spending levels we will likely have to notify States in 
the June timeline of our cash management measures. I would 
expect that our cash management measures would mimic what we 
were proposing last time.
    Mr. DeFazio. Right. And, as I stated at the beginning, some 
States, in anticipation of that, are already postponing 
projects for this construction year. Have you heard that same 
thing?
    Secretary Foxx. Yeah, talked about two of them already. I 
do think they are all scanning their programs of work this year 
to figure out what they are going to do.
    Frankly, from their standpoint, May is actually late in the 
game.
    Mr. DeFazio. I know, right.
    Secretary Foxx. So they are going to have to be making 
decisions before May.
    Mr. DeFazio. OK. Thank you.
    One other issue we discussed earlier this year, you called 
me about what you are doing with the cross-border program 
regarding Mexican trucks. I expressed a number of concerns to 
you, including the fact that there isn't much of a regulatory 
agency on their side, enforcement, et cetera. And it is my 
understand that the Federal Motor Carrier Safety Administration 
has submitted comments to Mexico about their concerns. Would 
you provide those comments, please, to the committee, so we can 
understand what safety concerns and inadequacies are on the 
other side of the border?
    Secretary Foxx. We will respond to you in writing.
    Mr. DeFazio. OK.
    Secretary Foxx. Yes, sir.
    [The information appears in Secretary Foxx's response to 
Congressman DeFazio's question for the record on p. 85.]
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. I recognize Mr. Mica for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    First, let me give you the good news and the pat on the 
back. Some of the provisions that we put in MAP-21 allowing 
public-private partnerships--you spoke to capacity, and we have 
got to increase capacity. Believe it or not, our responsibility 
is also the interstate highways, the Federal interstate 
highways, and we need to do more there.
    That legislation has led to us in central Florida to take 
20 miles of most congested metropolitan area and expand it to 
Mr.--goes through part of Mr. Webster, my district, Ms. Brown's 
district. On Sunday we actually started that project, this past 
Sunday. It would take 8 to 10 years more to get the $2.4 
billion. We got about $1.4 billion in alternative and private-
sector funding, and that has going to build increased capacity, 
a great example of what we can do taking our bucks--and that 
right-of-way that sits there--and expand it. So, thank you.
    Now, let me get to a couple of other things. Haven't been 
here as long as Mr. Duncan, Mr. Young, and some others on the 
other side. But the longer you are here, you know there is 
never enough money, so you got to have those innovative things, 
and I am glad you have supported that, and successful.
    In the last bill we put provisions that allowed us to go to 
using IT, intelligent transportation systems, and technology to 
take the corridors that we have and move more traffic. I have 
seen some examples--New York City, there are several around the 
country--where they have got some incredibly innovative things. 
You take the capacity you have, and you maximize it.
    We have money in some of the accounts existing, don't we, 
Mr. Secretary? To do that research and those projects.
    Secretary Foxx. We do have ongoing research----
    Mr. Mica. Yes, and I know there is money there, because I 
have checked. The problem is--and when was it my staff was 
checking? I think it was last May. My central Florida people 
put in a request to do a project which could be a model for the 
rest of the country to move traffic in some of our arterials 
faster. That is still sitting there. I have called at least 
three times. How long does it take to get that money out?
    So, you have got to get money that is in some of these 
accounts out. And I know, Mr. Webster, Ms. Brown, and others, 
we would be most grateful if we could get that out for central 
Florida. We could create a model of how people--everybody here 
has huge traffic problems, but they don't have the money. And 
simple solutions using technologies can get us there.
    Second thing is I had--we have a commuter rail system--hate 
to get local and parochial, but you know how it goes, and all 
politics is local. We had people up this morning and today 
coming to Washington because of some changes in a proposal for 
a commuter rail. And I couldn't figure out what was wrong; 
there had been agreement before. I found out there was, like, 
$10 million difference in a $170 million project.
    Two things were brought to light. One, we started agreeing 
and setting the terms for this 6 or 7 years--no possibility of 
flexibility. You talked about flexibility, budgeting for 
results. But we have to have some flexibility on 7 years, a $10 
million difference.
    Then I found out, further, that the difference is actually 
a requirement on Positive Train Control, which we mandated in 
the interim from the time the project started. So, it put us in 
a situation where we have problems or issues over a small 
amount of money because of a Federal edict.
    Somewhere we need the ability of the Secretary to step in 
and say, ``Let's move forward with this.'' You have been 
helpful, we appreciate that, but those are the kind of things 
that drive us bananas.
    Finally--I have got a few seconds here--you have actually 
been the first Secretary to come forth with some policy in the 
administration. We had nothing for a long time. You talked 
about freight; we had freight mobility study. Come up with a 
couple of innovative projects. We have the ability to do some 
freight corridors, OK? And I think we could do them. But I 
think sometimes it takes the administration to take the lead, 
someone to take the lead.
    What is it, I-81, I-95, some of those corridors--maybe--
what goes through yours? Let's use I-81. There is a great one. 
That is a truck canyon and corridor. But there is lots of 
right-of-way there. Let's convert that, let's put some money 
into that, and show that we can move--you gave us the 
statistics, which were astounding, of how much more freight we 
are going to move by highway. But we don't have a single plan 
or a model. And we could do that.
    And think about doing it just through the chairman's 
district, if nothing else. How is that?
    Mr. Shuster. The gentleman's time is expired.
    Mr. Mica. I just gave him a project.
    Mr. Shuster. I appreciate it.
    Mr. Mica. OK.
    Mr. Shuster. I want you to stop there----
    Mr. Mica. Yield back the balance of my time.
    Mr. Shuster. Want you to stop there and not--I don't want 
you to dilute what you are saying by saying anything else.
    [Laughter.]
    Mr. Shuster. Thank you very much, Mr. Mica. And, by the 
way, for those of you who want to see it, it is like a railroad 
at night. It is just trucks. It goes up to New York, in some of 
your districts, and down South.
    But, with that, I recognize Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. And I think we have a 
pretty realistic notion of where we stand on the highway bill, 
I regret to say. So I would like to get into a couple of 
nationally significant safety issues.
    After 20 years, we finally got regulation of transit--
particularly underground transit--but only after nine people 
were killed in a Metro accident here in 2009. And now we have 
just had another accident, which took a life and sent 80 people 
to the hospital.
    Am I to believe that the FTA safety office, which will 
oversee States--we gave this task to the States, with the FTA 
safety office having oversight. Is that office fully staffed?
    Secretary Foxx. We have been staffing up steadily since 
MAP-21 gave us that responsibility----
    Ms. Norton. When will that office be staffed? It needs to 
push the States.
    Secretary Foxx. Yes. Well, admittedly, ramping up a very 
new function in safety takes a little time. In fact, we are 
working through a rulemaking that will give us all of the 
authorities, and provide the agencies with all of the notice of 
our activities that will happen, going forward.
    I can get you more detail on the rampup plan, but I know 
that last year we brought in more than 20 people to help us 
with these activities. But you are absolutely right; these 
transit systems are critically important, and when accidents 
happen, answers need to be developed very quickly, and 
responses need to be deployed very quickly.
    Ms. Norton. Mr. Secretary, do you have any idea how many of 
the State offices are staffed, and up and running?
    Secretary Foxx. I don't have information----
    Ms. Norton. Would you get that information to the 
committee?
    Secretary Foxx. Of course.
    Ms. Norton. I think we need to push the States when we see 
these accidents continue to happen.
    Let me ask you another--about another safety issue. Most of 
our trucks are really small businesses, and there has been no 
standard driver training. To their credit, they desire to have 
a standard curriculum. This is--this issue is more than 20 
years old. I believe I read yesterday that you had--you were 
beginning a negotiated rulemaking, and would expect a final 
rule, I suppose, at some point on behind-the-wheel training for 
drivers, which is lacking for most of the drivers in the trucks 
out here on the roads.
    Have you an expected timeline for this driver training 
curriculum?
    Secretary Foxx. We hope to complete our work on this within 
the calendar year, Congresswoman. This has also been a long and 
tortured issue with a lot of false starts in the past. But we 
think a negotiated rulemaking is the fastest way to get us 
there with the parties at the table.
    Ms. Norton. That is very good news, that this could happen 
within the year.
    Finally, Mr. Secretary, various States, frustrated that we 
did not even authorize any experiments for alternatives to the 
gas tax--some of them have begun to do their own alternatives--
I wonder if you would agree that, at the very least, in the 
next bill the Federal Government ought to authorize studies of 
what the States are doing, so we have at least some information 
on alternatives to the user tax that we now know is no longer 
useful to us.
    Secretary Foxx. I think that would be a very productive 
opportunity. There is a reason why America is getting more 
stuck in traffic, and some of it has to do with the fact that--
the way we have done things in the past, both policy and 
perhaps even funding-wise, need to be looked at with fresh 
eyes.
    I think the more information, the more study there is out 
there, it can only help the system, at the end of the day.
    Ms. Norton. Thank you, Mr. Secretary. It is one thing for 
us not to authorize the studies. I congratulate the States who 
are doing their own experiments. And, at the very least, I 
will, myself, endeavor to see that the next transportation bill 
at least gets us some input from the studies--from the work 
that is being done in the States. And I thank you, and I yield 
back, Mr. Chairman.
    Mr. Shuster. Thank you. And, with that, I recognize Mr. 
Hanna for 5 minutes.
    Mr. Hanna. It is a pleasure to see you here today. Thank 
you for being here.
    Secretary Foxx. Good to see you.
    Mr. Hanna. Mr. Secretary, this is a little bit off of where 
everyone else is going, but there is an hours-of-service 
regulation that you are familiar with. It is of deep concern to 
a great many people, the 34-hour restart period. It was 
surprising to see that the Department, in implementing the 
study required in last week's--last year's appropriation bill 
actually awarded that study to exactly the same company that 
did it the first time that we take great exception to their 
results and their opinion.
    They also asked to have their--knowing that there are 2 
million truck drivers in this country, they asked to have a 
survey sample of 250. And what we know about this bill, from 
the truckers--and it is not anecdotal; it is real--is that the 
way the bill is written--the way the proposed rule is--and we 
would hope it would change--is--requires them to go into 
earlier hours of the morning--or, rather, later hours in the 
morning, simply--and require more trucks and more drivers, et 
cetera.
    So, I just simply ask that a serious look is taken at 
that--to that, and that we engage the 2 million truckers and 
all the companies, because they are up in arms over this, 
simply because they think it is counterproductive, in terms of 
safety. And also, because it would require more trucks and more 
drivers to go on the road to replace those ones. And it is very 
prescriptive to tell a person, basically, when they are tired.
    If you want to make a comment, I would be happy to hear 
about it.
    Secretary Foxx. Well, only to say two things. One, I will 
take a look at the issues you are raising, and, second, to 
reaffirm one critical fact, which is that we at USDOT, our 
focus isn't on inhibiting people's rights to make a living, or 
their freedoms. But it is to make sure that the transportation 
system is safe. There is science about human tolerance, 
Circadian rhythms, it gets into a lot of scientific stuff about 
how much of a tolerance an individual has.
    We have used that science in aviation, we have used it in 
just about every mode of transportation. And hours-of-service 
rule was our first foray into that----
    Mr. Hanna. But knowing that the study was never completed, 
and yet it was implemented August a year ago, doesn't prove 
that they were interested in science. Actually, it proves that 
they were on a mission to have this rule implemented. It seemed 
very arbitrary and capricious.
    We are asking only that the study is done thoroughly, done 
intelligently, and done based on the things that you just spoke 
about, knowing that the trucking industry is fundamentally 
happy with the rules that they have, and the industry's record 
of safety has increased year in and year out.
    Secretary Foxx. Well, I would say that we don't make a 
practice of issuing rules without completed studies. But I will 
take your point, and the point being that our goal is to 
maximize the amount of transparency and input from a variety of 
stakeholders, which is what our public input processes really 
should do, so that when we land on a rule, folks feel like they 
have at least been heard, and they have actually been heard.
    Mr. Hanna. I appreciate that. And I also think, though, 
that it is--one could argue that to hire a company that 
completed a study and ask it to go back on its own study is the 
definition of a conflict of interest. And to have a 250 sample 
set out of 2 million is not--I am not an expert or an actuarial 
person, but it doesn't seem like nearly enough.
    So, I would ask that you go back and look at the company 
you hired. Because, basically, no one is going to believe what 
they say. You know?
    Secretary Foxx. So I will be happy to respond to you in 
writing after we have taken a look at----
    Mr. Hanna. You are very kind, and I appreciate it, sir. 
Thank you. I yield back.
    Secretary Foxx. No problem.
    [The information follows:]

        FMCSA selected the Virginia Tech Transportation Institute 
        (VTTI) to manage the Commercial Motor Vehicle Driver Restart 
        Study as they have a solid national reputation for conducting 
        vehicle-related safety and driver fatigue research. VTTI 
        pioneered the use of naturalistic driving studies and has 
        successfully carried out these kinds of projects for FMCA over 
        the past 10 years. Additionally, the National Academies of 
        Science selected VTTI to oversee large scale naturalistic 
        driving research projects as part of the congressionally 
        directed Strategic Highway Research Program 2 (SHRP2).

        The overall study team is different from the MAP-21 study, for 
        which Dr. Hans Van Dongen at Washington State University served 
        as the technical lead. Regarding the Driver Restart Study, in 
        addition to the VTTI team, Dr. David Dinges, a nationally 
        recognized expert in sleep and fatigue research, and his team 
        at the University of Pennsylvania serve as the technical lead 
        for the study. Dr. Dinges has served as President of the Sleep 
        Research Society, on the Boards of Directors of the American 
        Academy of Sleep Medicine and the National Sleep Foundation, as 
        President of the World Federation of Sleep Research and Sleep 
        Medicine Societies and as Editor-in-Chief of SLEEP, the leading 
        scientific journal on sleep research and sleep medicine.

        The Commercial Motor Vehicle Driver Restart Study has 
        similarities to the MAP-21 study but is broader in scope as it 
        will involve more than 200 truck drivers over a 5-month data 
        collection period. The Driver Restart Study will also employ 
        more methods to measure driver fatigue and safety performance 
        such as on-board video monitoring systems. Data from more than 
        200 drivers will generate statistically significant data as it 
        is a large enough sample size to measure the characteristics 
        between the two groups of driver--those that use a one 
        nighttime rest period during their 34-hour restart breaks and 
        those that use two or more nighttime rest breaks. Standard 
        statistical techniques were used to generate an appropriate 
        sample size. This sample size, as well as the overall design of 
        the study, was reviewed by an independent review panel and the 
        U.S. Department of Transportation's Office of Inspector 
        General. As the project involved the participation of human 
        subjects, the study was also approved by Virginia Tech's 
        Institutional Review Board.

    Mr. Shuster. Thank the gentleman. And, with that, Mr. 
Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. Mr. Secretary, thanks 
for coming out and helping us out today.
    So, one of my criticisms about the administration's funding 
package is sort of what is next. You may not be here in 2021; 
some of us will be, and we will have to deal with 6 years from 
now, and what we do on funding. Because the--repatriation was a 
one-time deal. Do you have any--given Ms. Norton's question, is 
there some proposal to look at what would be next, after--if 
this bill passes, as is, in terms of funding?
    Secretary Foxx. So two points, and I will try to be brief 
with these.
    Mr. Larsen. Yes.
    Secretary Foxx. We do not characterize our proposal as 
repatriation. That term gets pushed around a lot, and I think 
it is important to recognize that what we are doing is we are 
putting a one-time tax on overseas----
    Mr. Larsen. Here is my point.
    Secretary Foxx. Yes.
    Mr. Larsen. Define it--whatever the definition is, it is 
one time. Is that right?
    Secretary Foxx. Yes.
    Mr. Larsen. So it would fund it for the 6 years, and then 
the next 6 years we would be left to deciding how we fund the 
next 6 years.
    Secretary Foxx. Yes. I think what you are asking is the 
reality that, no matter what pay-for you look at, there are 
some weaknesses in all of them. In this pay-for, what you get 
is basically a 50-percent increase--actually, a 100-percent 
increase in what the gas tax is putting into the system today. 
And you are able to substantially move the country forward over 
a 6-year period.
    Now, there is a question mark on the other end of that. But 
look at where we are right now. We have bridges that are 
crumbling, and we need to do something. We think it is 
important to get something done right now. If we can work with 
you to figure out the longer term, all the better.
    Mr. Larsen. So that point--I am well aware of the crumbling 
bridges, since Skagit River Bridge collapsed in my district in 
2013. And so I have introduced the SAFE Bridges Act last 
session of Congress, introduced this session of Congress. Is 
there anything specific to bridge replacement and bridge 
investment in the proposal?
    Secretary Foxx. Yes, there is a critical infrastructure 
repair program that is contained in GROW AMERICA. It is focused 
on repairing infrastructure such as bridges that are in a state 
of disrepair. It would put substantial amounts of money into 
just focusing on maintaining our system in a better level.
    Mr. Larsen. So the second things from--the second lesson 
from the Skagit River Bridge collapse was--what we used to fund 
it was emergency bridge repair, as well as the streamlined 
permitting process. These two things are lessons learned from 
the I-35W collapse.
    Has the administration or the Department looked at that 
permitting process for the emergency bridge repair as an 
application, a broader application, to deal with this, the 
broader permitting issues that we all have experienced when we 
see these projects being built?
    Secretary Foxx. Yes. And, in fact, I have to give credit to 
MAP-21 for giving us the tools to do the emergency release 
funds the way we did it in the Skagit situation, as well as the 
permitting work. Again, that is wrapped into our version of 
permit reform that is contained in GROW AMERICA.
    Mr. Larsen. And applying it more broadly, not just to 
emergency situations, but to----
    Secretary Foxx. Yes, we have managed to accelerate 
permitting in emergency situations, and then we put projects up 
on our permitting dashboard. The basic practice is the same, 
which is to have concurrent reviews that move things forward.
    Mr. Larsen. Thanks. Finally--perhaps--well, probably with 
the time left--there is a question about--one approach people 
are talking about with regards to transportation funding is 
devolution, getting the Federal Government out of the business. 
And I like to say Lewis and Clark were the first intermodal 
travelers in the country.
    So, we have been, from a Federal perspective, traveling 
intermodally for a long, long time. And the idea of devolution 
seems to me a step back. Can you give us a why or why-not 
description on devolution?
    Secretary Foxx. Well, I think the bottom line on that 
question is that if you take freight, for instance, we 
manufacture something here in the U.S., and we want to get it 
someplace else in the world. Whatever that is, it has got to go 
across several States, likely, to get someplace. If you have--
the State it is made with pristine infrastructure, and then it 
goes to the next State over, and that State has very poor 
infrastructure, and the stuff can't get to the next State, you 
have got problems.
    The Federal Government has always taken an interest in 
making sure there is at least a floor there so that we can have 
interstate commerce behave as we want it to. That is just one 
reason why I don't think devolution is a good idea.
    Mr. Larsen. That is great.
    Secretary Foxx. There are many others.
    Mr. Larsen. Good. Thank you.
    Secretary Foxx. Thank you.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentleman. And, with that, Mr. 
Crawford is recognized for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here today. We are on the front end of a process 
of trying to reauthorize a highway bill and Highway Trust Fund. 
And I hope we are able to consider a multiyear approach. And 
that is going to contain hundreds of billions of dollars in 
spending. And my constituents, along with, I think, everybody 
in the room, would just like to make sure that every dollar is 
spent wisely.
    And the administration has made transparency a priority, 
and I am wondering if there is not more that could be done here 
to bring transparency to where and how money is spent. 
Specifically, can the agency provide a greater level of detail 
at the project level?
    Secretary Foxx. We have tried. When the Recovery Act was 
done back in the late 2000s, we put up a dashboard that was 
basically designed to do exactly what you are saying: ``Here is 
Project X, here is where it stands in the permitting process,'' 
and to show the progress that was being made on that project, 
as it was going through the process.
    Can we do more of that? Absolutely. We could do it more if 
we had the technological tools, and if we had the authorities 
from you. I think the more we can work on that, the better.
    Mr. Crawford. Well, certainly, I think the technology 
exists to do that. I mean last week Ford introduced a 
driverless car that drove hundreds of miles on a California 
highway. So I don't think technology is an issue, I think it is 
a willingness of the administration to make that a priority.
    Let me ask you specifically. Where is the highway bill, in 
terms of the administration's priority? How does it rank?
    Secretary Foxx. We put a bill out last year. We are working 
on a new and improved version of it. And it is a very high 
priority. I don't think we would spend our time trying to come 
up with a proposal if we didn't think it was important.
    Mr. Crawford. And let me go back to the technology thing. 
Is it feasible to think that we might be able to have a Web 
site that would detail these categories of projects, so that 
the general public could go on at any given time and see where 
their dollars were being spent?
    Secretary Foxx. I think we have a lot of challenges with 
that. I want to explain what they are, because it is not a 
willingness. It is actually--the USDOT is basically a funding 
partner with States and local project sponsors, which is where 
most of the work is actually being done. And so, our ability to 
track the progress of any given project is directly tied to 
that State's ability to provide us with current information.
    We have a new NEPA tool called eNEPA. We are basically 
trying to put that on a digital platform, so that we can use 
less paper, and do this concurrent permitting better. But we 
have a handful of States right now that are using it.
    And so, when I say that it is, I am not trying to drag my 
feet on this, I think your idea is a very good one, and I look 
forward to trying to move it forward. But we have got to have 
cooperation from the States and investment by the States in 
helping us get this platform moving.
    Mr. Crawford. Well, with respect--you know, my 
constituents, and I suspect most constituents across the 
country, feel the same way about this. We use broad terms like 
``infrastructure investment,'' and folks really don't know 
where that money is going, and there has not been a very good 
account of where it is going, and can't see necessarily the 
progress that they would like to see.
    And, you know, I don't think a sign is sufficient. In fact, 
I think a sign actually ends up costing more, when we could 
utilize technology more efficiently to let people know what is 
going on, where it is taking place, and the progress of a given 
project in any given time.
    So, you know, if we could see that incorporated going 
forward, I think you would see a lot more willingness on the 
part of the American people to support infrastructure 
investment, having a better idea of knowing where their dollars 
are going. I say ``their dollars,'' because I think we all know 
that we are playing with our tax dollars.
    Mr. Chairman, I yield back.
    Mr. Shuster. I thank the gentleman. With that, Mrs. 
Napolitano is recognized for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman. It is good to see 
you, Secretary Foxx. Just a couple of comments.
    And in your statement you indicate that you are paying more 
attention to rural and tribal areas to include in covering. 
What about territories?
    Secretary Foxx. Through the GROW AMERICA Act, we invest in 
territories, too. There have been some proposals recently that 
have not. But our proposal acknowledges and supports the 
programs in the territories, as well.
    Mrs. Napolitano. Thank you. Well, some of my former 
colleagues had brought it up, and they are not here in this 
committee any more.
    The other area is railroads usually provide about 3 percent 
for grade separations. And I have recently asked Mr. Hamberger 
how much. He guessed at 10. I reminded him it is mostly about 
3, and maybe 2 percent of in-kind. And those are the things 
that maybe we need to look at to be able to have more outside 
dollars be able to be paired with local, State, county, and 
Federal dollars.
    I am very glad to see the GROW AMERICA Act included a 
section to establish the national freight program. As you have 
been aware, the--my area is the busiest rail freight corridor 
in the Nation, with four freeways that are all just jammed to 
the hilt. And I agree with Mr. Chairman, because we have trucks 
day and night, especially on the 710, and then, of course, 
going out on the 10 and the 60. And the--of course, we have 
mostly Union Pacific, with the Alameda Corridor-East, which 
delivers over 50 percent--probably even more--of product to the 
Eastern States. Biggest challenge is mitigating the negative 
impacts in the communities that it transects.
    Now, do you think it is important the national freight 
program prioritize projects that mitigate the negative impacts, 
including health and safety impacts, that this freight has on 
our local communities?
    Secretary Foxx. I think that an important consideration in 
looking at a national freight plan is the impacts on 
communities. This gets to the point I was making earlier, 
because of MAP-21, we are looking at how freight moves in this 
country, and we are taking a broad look at that, probably even 
broader than just the four corners of what MAP-21 requires, 
because MAP-21 focuses mostly on highway lane miles, but we 
know that there is rail dimensions, there are port dimensions 
of freight.
    But as we look to improve our freight system, just like we 
looked to improve the entire transportation system, I think one 
of the most important things is making sure that there is a 
meaningful public input process that goes along with this, so 
that the impacts of any given decision are understood, taken 
into account, and addressed at whatever level the project is 
happening on.
    Mrs. Napolitano. Thank you. I will continue working with 
you on that, because that is a big issue in my area.
    Second question, Secretary Foxx, is the Federal law 
currently prohibits cities and local transportation agencies 
from having the local hire preference on transportation 
projects where just even $1 of Federal money is spent. That was 
an old provision. It used to be when 80 percent was federally 
funded and 20 percent local. Today it is reversed. Most of the 
communities either have local money, county money, State money, 
along with the Federal money.
    And this issue is addressed on a temporary basis in the 
appropriations law. But shouldn't we not include in the 
reauthorization bill to allow cities to have a local-hire 
preference, when the projects are a majority of local funds, 
whether State, local, county, and--versus Federal?
    Secretary Foxx. It is extremely powerful when a project is 
happening in someone's backyard, and they have the ability to 
apply for work in it. We think that having local hire would be 
a strong statement of the job creation value of transportation 
in our system.
    I do want to thank this Congress for allowing FTA to 
broaden its efforts in this regard through the omnibus bill 
that passed at the end of the last Congress.
    Mrs. Napolitano. Well, many of our communities sometimes 
have high unemployment rates, and this would be exceedingly 
helpful. Instead of having to import workers from other areas, 
from other counties, even from other States to come in and 
work. So love to be able to hear any more information that you 
may provide this committee.
    Secretary Foxx. Great, thank you.
    Mrs. Napolitano. Thank you. Yield back.
    Mr. Shuster. Thank the gentlelady. And, with that, Mr. 
Barletta is recognized for 5 minutes.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman. Mr. 
Secretary, last year the GAO issued a report that was highly 
critical of the FMCSA program, and its effectiveness in 
improving highway safety. Right around the same time that 
report was issued, FMCSA issued a report by DOT's Volpe Center, 
the very organization that developed the methodology behind 
CSA, that served as a ringing endorsement of the CSA program.
    One of the major problems pointed out by GAO was that CSA 
uses data from a significant number of violations that have no 
causal connection to crashes or predictive ability, a point 
reinforced by the motor carrier and enforcement communities in 
separate letters last year. If CSA is truly meant to address 
safety problems before crashes occur, shouldn't scores, 
especially if they are available to the public, be based upon 
violations of regulations that have a causal connection to 
crashes?
    Secretary Foxx. I would like to submit a more thorough 
response to you in writing, but let me just respond briefly, 
here.
    FMCSA has fully reviewed the GAO report. While considering 
all the information, the agency has strong disagreements with 
it. The primary reason is that the GAO's proposed methodology 
is inherently flawed, according to FMCSA, and counter to the 
agency's safety mission.
    The GAO recommendation proposes that the agency wait until 
20 observations of unsafe behavior and after a crash occurs, 
which is contrary to the goals of the agency of intervening to 
help carriers establish strong safety practices before crashes 
occur. So I think there is a disagreement here. I would like to 
flesh that out to you in a written response, if that is OK.
    Mr. Barletta. And let me say, Mr. Secretary, I am glad that 
you are a mayor. I think mayors are smart people, should be 
appointed to the highest positions of any department.
    [Laughter.]
    Secretary Foxx. Sounds like a former mayor over there.
    Mr. Barletta. In August 2013 more than 40 of my House 
colleagues and I sent you a letter urging you to consider the 
impact of bigger trucks on our local roads and bridges across 
the country in your truck size and weight study. Despite our 
requests, it is my understanding that the Department study will 
be limited to what is basically the interstates and National 
Highway System.
    Are you looking at about 5 percent of public roads, and you 
are, in effect, ignoring the other 95 percent of roads and 
bridges where most people live and work.
    The majority of automobile traffic are on these local 
roads. I discussed this issue with city and county officials in 
my district, and they are very clear in saying to me that their 
roads and bridges are far different than those that you plan to 
study. Their roads and bridges are older, and they are in worse 
condition, and they are many times built to a lower standard: 
many just a few inches of asphalt on a local road, as you would 
know, as a mayor, versus an interstate that has maybe a foot of 
concrete.
    This is a letter from Mayor Joe Yannuzzi from the city of 
Hazleton, and he says that the roads in his city, where the 
heavier trucks operate, have sewer and water pipes beneath them 
that can be damaged from the heavier truck vibrations because 
of the only few inches of asphalt that are there. That is not 
something that you are going to find on interstates.
    He goes further to say that if a--bigger trucks are 
allowed, he would have to double the public works budget to 
cover the increased maintenance costs.
    Don't you agree that we should have data on the impacts of 
the bigger trucks on the local roads before making the decision 
to allow them nationally? And how much time and money would you 
need to extend your analysis to cover the impacts on the local 
roads, where the local taxpayers will be footing the bill?
    And, again, as a mayor, I am sure you can----
    Secretary Foxx. Yes.
    Mr. Barletta [continuing]. You could appreciate that.
    Secretary Foxx. I totally get that. Yes, sir. Frankly, I am 
going to need to go back and also respond to you on that 
question of the local road impacts, and how carefully we are 
looking at it.
    What I will say, though, is that, from the very beginning 
of launching this study, we have built in some substantial peer 
review and public input work that is ongoing to stress-test the 
study to ensure that we are looking at what we should be 
looking at.
    And so, as we go along, it is a report I know people are 
anxiously awaiting, but we are trying to make sure we get it 
right. The kinds of questions you are asking are ones that----
    [On pp. 83-85, Secretary Foxx responds to Congressman 
Barletta's questions for the record regarding the impact of 
trucks on roads.]
    Mr. Barletta. I think the study would be fundamentally 
flawed if we are not considering the local roads and the impact 
that it has on the local taxpayers. Thank you.
    Mr. Graves of Missouri [presiding]. Mr. Garamendi, you have 
5 minutes.
    Mr. Garamendi. I do. Thank you, Mr. Chairman. Mr. 
Secretary, I want to thank you and congratulate you and urge 
you to continue to really re-do the new version of GROW 
AMERICA. Last year's version was--covered all of the issues we 
need to cover, and I think covered it in a very solid way, from 
highways to transit to airports and freight, and everything in 
between. Stay with it. I look forward to your bill, and I would 
hope that your version of the bill becomes the foundation for 
our work in a 6-year plan, going forward.
    The issue of funding will be debated for a long time, and 
hopefully resolved. But I think the American people really need 
to understand why we must do this. If they have a full 
understanding of the necessity of it, then the funding issue 
will follow much more easily. Thank you for going to some 40 
States. You are welcome in my district any time to explain why 
we need to do this, and I will work with you on that.
    There are some very important policy issues in the GROW 
AMERICA Act, and I would hope that they would be in the new 
legislation that you propose, among them the Buy America 
provisions. These are American taxpayer dollars. They ought to 
be spent on American jobs and American equipment made in 
America. And I thank you for having that in last year's bill, 
and even in a higher percentage. Stay with it. You will 
certainly have the support of many of us in Congress, because 
we want to see those jobs in America.
    In that area, there is now before you a request from Amtrak 
to waive the Buy America provisions for some 28 train sets for 
the Amtrak high-speed rail here, on the east coast. You will be 
getting a letter--you got a letter from me, you will get a 
letter from many others in this committee saying, ``Don't 
provide that waiver.'' If that waiver goes forward, we will not 
be building those manufacturing facilities here, in the United 
States, for the future, as well as the Amtrak proposals.
    I don't know if you want to comment on this. I would love 
to hear you say, ``No waiver coming,'' but if you would like to 
comment, please do.
    Secretary Foxx. Well, thank you, first of all, Congressman, 
for the incredible support for the administration's proposal. 
It is, we think, a very targeted, focused, and effective 
proposal, and we appreciate your support.
    On the issue of the Amtrak trains, that is a measure that 
is under review by the Department. And I think I would be 
getting over my skis by commenting here, but I take your point, 
and we will, obviously, take that back into the Department.
    Mr. Garamendi. Well, I fully expected you to duck, bob, and 
weave on that one, but----
    Secretary Foxx. Thank you, I try to please----
    Mr. Garamendi. Know where we are coming from. And, since 
you wrote a very high standard into last year's GROW AMERICA 
bill--and, I hope, in the coming bill--you will carry out your 
own policies in this regard.
    With regard to another issue, Mr. Barletta raised this 
issue of the heavy trucks and the super-trailers, super-sized. 
There is a great deal of concern in California about this. We 
don't now have these in California. Many of the local 
officials--State, county, mayors, and the rest--are very 
concerned, just as you heard from the previous discussion. I 
share those concerns, and I would hope that the study that is 
underway would take into account local highways. And also, the 
comments of local police, sheriffs, highway patrols, which did 
not appear to be in the study, thus far.
    If you would care to comment on expanding the study to 
include these concerns, I would appreciate it.
    Secretary Foxx. We are still working through desk scan 
revisions, release of technical reports still have to be done. 
But there is another round of public input that is built into 
our process. So there is still time for us to get the types of 
comments that you are talking about.
    Now, we will make sure that you are aware of when that time 
will come in the process.
    Mr. Garamendi. I thank you for that. I would note that the 
local agencies--police, fire, as well as mayors and counties--
are very, very concerned about their input into the current 
study being insufficient or, actually, ignored. And we would 
hope that this would not be in the final study.
    I thank you once again for your leadership on the overall 
transportation issue. GROW AMERICA was a very good bill. I am 
sure that the next version, by extending to 6 years, is even 
better. Please carry forward the policies. I will yield back my 
time, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman. Secretary----
    Secretary Foxx. Good to see you.
    Mr. Webster. First of all, I would like to personally thank 
you for helping out with me and--personally, and the State of 
Florida, in getting a TIFIA loan for the Interstate 4 ultimate 
project. That was crucial in getting that project going and on 
time, and I really appreciate your personal involvement on 
that. It was an awesome effort. And it is the largest loan, as 
you note, that--by the Department on a public-private 
partnership, which is going to help us immensely. We have over 
55 million people that come to our central Florida area and 
visit our world-class attractions in the district I represent, 
and along with the citizens there, we have a lot of traffic.
    And that loan that was done in the TIFIA project, the 
ultimate project for Interstate 4, part of that, was--that 
project is a revenue-generating project, because it uses 
variable toll express lanes to help fund that project, and to 
help pay back that loan. And my thought is does that--does the 
fact that there is revenue, like new revenue that is produced 
by a project, does that enhance the application for a TIFIA 
loan, do you----
    Secretary Foxx. We are somewhat agnostic on whether it is a 
new revenue source or an old revenue source. But, clearly, 
because we are talking about financing, as opposed to funding, 
what we do need to know is how a given entity proposes to pay 
back the loans.
    We have seen in different places--by the way, last year was 
a record year for TIFIA. We did 13 projects and $7.5 billion. 
But what we have seen is that some communities use availability 
payments, existing tax revenues, to pay back a TIFIA loan. In 
the case of I-4, there was a new facility of tolling that was 
used to pay those revenues. But we actually have seen all sorts 
of different ways to pay for projects, and we continue to keep 
an open eye and ear towards new ways of doing it.
    Mr. Webster. Well, I--and I knew last year was a big year 
for TIFIA loans. Is there anything that you have learned over 
those multiple applications that would help streamline the 
process? And would any of that require legislation?
    Secretary Foxx. One of the things that we have done 
differently with TIFIA since I have been in place is we have 
started to front-end our process. So it used to be that you 
send an application in, and the real hard brass-knuckle work on 
crunching numbers and trying to figure out an acceptable 
framework happened later in the process. We are now trying to 
do that hard work at the beginning.
    So, when a letter of interest comes in to the Department, 
we immediately start asking those hard questions, so that when 
we invite an applicant to apply to the program later, we have 
done that, and folks can have a certain level of confidence 
that the TIFIA loan is going to move through.
    So, we have tried to streamline it. I think it is working. 
And I will maybe think about ways that maybe you all can help 
us do even more, in terms of moving faster.
    Mr. Webster. If I could ask just one more question about 
transportation disadvantage. There are over 80 programs that 
have been highlighted. Only--less than 10 are in the Department 
of Transportation. There is a coordinating council. Do you 
think--and that was established because there has been some 
criticism that the same person is covered by three or four of 
those, not in the Department of Transportation, but other 
agencies through Labor and Education and Health, and all of 
that have--and the VA, all have--is there any way that that 
coordinating council could be beefed up? Or do you think it is 
working? Or is there something else we need to do?
    Secretary Foxx. Let me go back and take a look and maybe 
think about that. It hadn't--I hadn't focused on it, but----
    Mr. Webster. Every time we get the GAO reports, it is 
always mentioned. It is a little thing----
    Secretary Foxx. Yes.
    Mr. Webster [continuing]. In the overall, that we can say 
$500 billion if we consolidate programs. But it is there, it is 
something I knew about when I was in the State legislature, 
tried to fix it then. I would love to work with you on it.
    Secretary Foxx. That is great. Well, we will be back in 
touch with you.
    Mr. Webster. Great.
    Secretary Foxx. Yes, good.
    Mr. Webster. Yield back.
    Mr. Shuster [presiding]. I thank the gentleman. With that, 
I recognize Ms. Hahn for 5 minutes of questions.
    Ms. Hahn. Thank you, Mr. Chairman. Secretary Foxx, it is 
great to have you here with us. This is going to be a big year 
for our committee, as we work to create this surface 
transportation bill.
    My focus has been, since day one, is our Nation's ports. I 
cofounded our PORTS Caucus. We now have about 95 Members who 
are dedicated to really advocating for our Nation's ports. 
Chairman Shuster led a delegation many of us from this 
committee just went a couple weeks ago to see the Panama Canal 
expansion project, and spent a lot of time talking amongst 
ourselves on what impact that expansion project would have on 
the United States ports, and our ability to remain 
competitively--globally competitive. So, I appreciate your 
focus.
    My goal is--in this surface transportation bill, is to 
create a dedicated freight program. In my mind, this program 
should have a dedicated freight funding source, which deposits 
into a trust fund very similar to the Highway Trust Fund. I 
think freight projects are going to lose out if they always 
have to compete with all the other projects in this country 
with just the Highway Trust Fund.
    One of the recommendations of the Panel on 21st-Century 
Freight Transportation was that it should be a dedicated 
funding source. So, in response to that, I am going to 
reintroduce tomorrow the National Freight Network Trust Fund 
Act of 2015, with a bipartisan group of cosponsors, that will 
create a trust fund that should provide about $2 billion a 
year.
    My idea is to suggest that we divert 5 percent of our 
import fees in this country. We collect about $40 billion a 
year in our import fees, and just 5 percent of that, I think, 
would mean the difference to us, really, funding freight 
transportation projects in this country. And I think those who 
pay these import fees would appreciate us taking that money and 
putting it back into the Freight Network Trust Fund.
    So, my question to you is could you speak to that idea of 
having a dedicated funding source for freight projects in this 
country? Without that, do you think that the President's 
program, you know, could fail to provide long-term solutions to 
our freight bottlenecks in this country?
    And maybe comment a little bit about the last mile into our 
ports. You know, everybody is worried about how the Panama 
Canal expansion project will impact our ports. The west coast 
ports are going to be impacted differently than the east coast 
ports. And yet, the greatest, I think, threat to diversion of 
cargo is our landside congestion in this country. And, like you 
said, we have got to get it moved from one point A to point B.
    And, if you could, just speak to what do you think of this 
idea of dedicating the money just for freight projects? And how 
do we make sure the last mile into our ports across this 
country are targeted for this kind of funding?
    Secretary Foxx. We agree that there needs to be a dedicated 
freight program in this country. In the GROW AMERICA Act what 
we do is we put about $18 billion in place over 6 years--I 
think, actually, it is $28 billion over 6 years, that are 
focused on freight. And we are agnostic in that program on the 
mode.
    So, it can be ports, it can be rail, it can be highways, 
whatever is going to help us get stuff from one place to 
another faster, more efficient, and safe. So, we do it through 
the same mechanism that we pay for the overall bill. That is 
our approach. But, as we have said, if there are other ideas 
that emerge, we will hear them out.
    Your question on the last and first mile is a critical 
question, because, in many places, the same areas that are 
highly dense, highly congested, are places where that first and 
last mile is a problem. So you need to have a lot of different 
strategies to deal with it.
    One strategy is, number one, making sure that the assets we 
have, where those first and last miles occur, doesn't fall 
apart on us.
    The second strategy is trying to expand capacity where we 
can. In some cases, like in the Los Angeles area, you may be 
constrained, in terms of expanding lane miles. So there, the 
strategy may be working to get cars off the road so you create 
more capacity on the existing freeway. That means things like 
commuter rail transit, and other strategies.
    Then the last thing is continuing to work to make sure the 
system is smarter. We have problems in this country with 
double-stacking containers off of these big ships, because some 
of our bridges aren't high enough to run rail under, or run 
trucks under. And so, we have got to figure out a way to 
address those issues on the surface system, as you said, to 
enhance our ability to----
    Ms. Hahn. Right, because these bigger ships that we know 
will now get through the Panama Canal, I mean, we are almost--
are you tapping me?
    Mr. Shuster. Yes, ma'am.
    [Laughter.]
    Mr. Shuster. I know my good friend from California cares 
about the ports, but we are over time. So I appreciate the 
Secretary answering.
    Ms. Hahn. OK, OK, I yield back.
    Mr. Shuster. I let him answer your question fully.
    Secretary Foxx. I did.
    Mr. Shuster. Thank you very much, Mr. Secretary. With that, 
I yield to Mr. Denham for 5 minutes.
    Mr. Denham. Thank you, Mr. Chairman. I would like to yield 
as much time as the Member from Alaska needs.
    Mr. Young. Thank you, Mr. Denham, I appreciate it. Mr. 
Chairman, thank you for this hearing.
    We are all like a bunch of dogs circling around a skunk 
right now. That skunk is how we are going to fund this program, 
Mr. Foxx. This is our biggest challenge. Unfortunately, the--as 
you know, the administration, when Mr. Oberstar was chairman, 
did not support any increase in funding. And we have not done 
our job as a committee, nor as this Congress. And I think it is 
important for us to recognize, as the committee, and as the 
leadership of this House, and leadership of the White House, 
that we have to fund this program. You can't take it from the 
General Fund, $18 trillion in debt. You are not going to get it 
from overseas.
    And we sit here and talk about writing a highway bill; no 
one has addressed the issue of funding. And that is what we 
have to do, Mr. Chairman. If we do not do that, all these 
hearings are good, we will write something, but we won't 
accomplish that task of really building an infrastructure 
system in this country.
    And so, I am asking this committee and the chairman, I am 
asking the White House to sit down and say, ``Do we want to 
have a system to provide the transportation capability to this 
Nation, or do we want to talk about it?'' And so, that is my 
little opening statement.
    Mr. Foxx, you don't have to comment. You are going to get 
three questions from me in writing. I hope you will answer 
that. But I would like you to take that message back to the 
White House, that let's do the leadership role of funding a 
transportation system, and let's let the public pay for it. 
They will buy that. The truckers buy it, the public has to be 
sold on it. Otherwise, we don't--we will not have and will not 
be competitive, globally.
    So, Mr. Chairman--I thank you, Mr. Denham, for yielding. 
And I just want everybody to consider that. Kill the skunk. 
Let's fund this program. Because, if we don't, we are all in 
deep doo doo. Thank you.
    Mr. Shuster. Mr. Denham is going to reclaim his time after 
that. I don't know how you do better than that.
    Mr. Denham. Reclaiming my time, Mr. Secretary, first of 
all, let me thank you for not only our ongoing relationship, 
but our ongoing communication. You have had a great open-door 
policy. We have discussed a number of issues that are very 
important, and, certainly, some very timely issues.
    And I wanted to just follow up on Ms. Hahn's questions on 
the ports. You and I have discussed the ports, you know, her, 
down in Long Beach, me in the northern part of the State with 
Oakland--this was a California problem, now it is a national 
problem. It was an issue with a number of imports that were 
getting stuck; now we have a number of exports, many of which 
are perishable. I just want to encourage you to continue to 
have the administration--not only the ongoing involvement, but 
the aggressive involvement that will help us to end this. This 
is now a national issue that could cost us $2.5 billion to our 
economy every single day.
    So, again, you don't have to answer today, but I just 
wanted to say thank you for the communication and involvement 
in the issue.
    I did want to just touch on an issue with rail safety. You 
and I have had a number of discussions about that, as well; 
two, in particular. Again, thank you for your efforts with our 
previous, but also our next hearing on rail safety.
    The tank car rule, while the administration is over a month 
behind on that, it is my understanding that that rule is now at 
OMB. I would ask you to comment on what you think that timeline 
will be before we see that, as a committee.
    And then, secondly, I noticed in the budget there is $3 
billion available over the next 6 years for PTC, Positive Train 
Control. Is that 6 years a suggestion that it would be a 6-year 
extension to the PTC mandate?
    Secretary Foxx. OK. First of all, thank you, Mr.--
Congressman Denham, for your questions and opportunity to 
respond on these issues.
    The tank car and the high-hazard flammable liquid train 
rule is one that has taken an awful lot of focus and time and 
resources of the Department. We were pleased to get that rule 
over to OMB last week. That initiates an interagency process, 
and I, unfortunately, can't tell you, sitting here today, when 
that rule will come out. But what I can tell you is that it is 
the highest level of urgency for me to get that rule moved 
forward for our Department and, I believe, our administration, 
to move it as quickly as we possibly can.
    We know that certainty is important in this arena, for 
communities as well as for industry, and our goal is to get it 
out very, very quickly.
    Mr. Denham. Thank you.
    Secretary Foxx. On the--I am sorry, the second issue?
    Mr. Denham. On PTC, Positive Train Control. Right now, the 
$3 billion available over 6 years to eight commuter railroads, 
and the implementation. The question is, does that suggest that 
we should expect a 6-year--a recommendation of a 6-year 
extension?
    Secretary Foxx. No. I think what we have recommended in the 
past on this is continuing to hold the industry's feet to the 
fire, in terms of getting PTC done as quickly as possible.
    Our approach would be, essentially, to give us the tools 
within FRA to work individually with each of the railroad 
companies to develop plans that get them there as quickly as 
possible, as opposed to having a blanket extension which could 
delay all of the implementation to a point in the future. So 
that is our approach, and we think it is a prudent and 
practical one.
    Mr. Denham. Thank you, Mr. Secretary.
    Secretary Foxx. Thank you.
    Mr. Denham. Mr. Chairman, I yield back.
    Mr. Shuster. Thank the gentleman. Thank the gentleman. And, 
with that, I recognize Ms. Johnson for 5 minutes.
    Mr. Johnson. Thank you very much, Mr. Chairman. And thank 
you, Mr. Secretary, for being here. You have answered most of 
my questions. I first wanted to associate myself with the 
remarks of one of our former chairmen, Mr. Young. And I 
wondered if he had stolen some of my notes when he spoke.
    There is a question that I have not heard the answer to 
yet, and that is the issue of the agency's formula grant 
program, and whether or not you intend to use the current 
census data to make these determinations. And I am hoping that, 
in the recent iteration of GROW AMERICA, that this issue will 
be given some attention.
    And I say that because I am from one of the fastest growing 
areas in the country, which is in the north Texas area of 
Texas. And we have learned to build up, rather than just out, 
so we have large numbers living in highrises that have to get 
to work. And we are really concerned about the fair 
distribution, based upon current census data. Can you address 
that a little bit for me?
    Secretary Foxx. It is a very good question. I don't know 
that, in GROW AMERICA, we necessarily changed the formula, 
itself. What we do, by virtue of creating more funding, is we 
create more opportunities for communities to get the resources 
they need to do innovative, transformative projects.
    Certainly in your district and in Dallas, they have done 
some remarkable things, whether it is with transit or highways, 
or what have you. That is why the GROW AMERICA Act, for 
example, would expand the TIGER program to an annual $1.2 
billion program, to provide that flexibility. That is why we, 
as I said before, create a large freight program to help us 
address needs that are happening across the country. That is 
why we expand TIFIA and some of the other tools that we have in 
place, because we, frankly, need to create more flexibility.
    There is another area that we also do in this bill, which 
is--and this comes directly from my experience, as a mayor, 
which is that, you know, when you are a mayor, and you see 
these dollars coming into a State, you watch them bounce around 
like a ball in a pinball machine. You watch the ball go around, 
and then you see what lands in your community, and it is 
usually a very small fraction of what came in, in the first 
place.
    So, one of the things we do is we create a program called 
FAST that focuses on local transportation projects, and rewards 
communities that look regionally at transportation projects 
that are going to impact their ability to grow jobs and create 
better economies. So we create multiple ways for communities to 
get the flexibility you are talking about. But I will go back 
to my team and ask the question again as to whether we change 
the formula itself.
    Mr. Johnson. Well, thank you very much, and thank you for 
coming to my most gorgeous area in the country when you made 
your tour last year.
    And thank you, Mr. Chairman. We have a great committee, 
with great leadership, and I hope that we will come to some 
real good recommendations very soon to address the issue. Thank 
you very much.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank the gentlelady. And, with that, Mr. 
Ribble is recognized for 5 minutes.
    Mr. Ribble. Thank you, Mr. Chairman. Mr. Secretary, it is 
good to have you here. You are highly regarded in this 
committee, and it is an honor to have you here with us today.
    Secretary Foxx. Thank you.
    Mr. Ribble. I think I will start with some words of 
encouragement first, and then I will get into maybe a little 
more difficult question in the second.
    I, along with Congressmen Pascrell, Lipinski, and Reed, 
have been circulating a letter among our House colleagues, 
asking them to sign on, telling the leadership of the House of 
Representatives that we would like to see a long-term, fully 
funded authorization bill. I would like you to know that we 
have 285 Members of the Congress on that letter already. That 
is 66 percent of the House. And so there is broad, bipartisan 
support here to have that long-term bill and authorization 
done. I think that is good news.
    Along with that, though, you play a pretty significant 
role. We need to bring the American people along with this, as 
we work toward this end. And your ability to get out in front 
of the American people and the administration to talk about 
this committee's work, and the fact that we are committed to 
it, and that Congress is committed to it, could be really 
helpful to us. Would you be willing to do a little bit more of 
that, and really get out there?
    Secretary Foxx. Absolutely, sir. This is an area that I 
have tried to be very out front on. I did a bus tour last year 
that went through nine States, many communities, rural and 
urban. We are trying to do everything we can. I am even on 
Twitter later today with the chairman. I am looking forward to 
that, as well. But we are going to use every opportunity to let 
the American public know that this is a problem.
    In fact, when we go to the American public, they are 
telling me what their problems are, because they are stuck in 
traffic, they know it. I completely agree with you, and we will 
do everything we can.
    Mr. Ribble. Thank you. Thank you very much.
    Secretary Foxx. Thank you for your efforts, too, 
Congressman.
    Mr. Ribble. You are welcome. Two quick questions for you. 
One is, in your comments earlier you said that part of the GROW 
AMERICA Act--and I realize that what we do here is not going to 
look exactly like that, but we will find some bipartisan way to 
move forward. But in your comments you said that you wanted to 
cut redtape, you wanted to actually reduce redtape. Why do we 
have to wait until a bill is passed to do that? Don't you have 
the authority to cut redtape right now?
    Secretary Foxx. We do have some authority to cut redtape, 
and we actually have cut a significant----
    Mr. Ribble. I would encourage you to cut a bunch more.
    Secretary Foxx. Yes. Well, look, let me give you an 
example. In the highway area, historically our environmental 
impact studies have taken 79 months, on average. We have cut 
that down now to 45 months. We continue to whittle away at 
this, administratively.
    What we are asking for in the GROW AMERICA Act just gives 
us even more fire power to try to attack the delays that happen 
in transportation in a way that we think is doable and doesn't 
compromise the environment.
    Mr. Ribble. And I talk to a lot of contractors. And before 
I came to Congress, I was in commercial construction, myself. 
And I can tell you I spent an awful lot of time holding one of 
these, and not enough time holding a shovel.
    Secretary Foxx. Yes.
    Mr. Ribble. And we have got to get at that----
    Secretary Foxx. Yes.
    Mr. Ribble [continuing]. That, ultimately. And so, thank 
you for that.
    MAP-21 required the administration to do a truck weight 
study. Mr. Barletta mentioned it earlier. I happened to be, in 
fair disclosure, on the other side of the argument. But when 
will we be able to see that study? It was supposed to be done 
in October, and I am curious when we are going to get a copy of 
that. Because it is difficult for us to move forward with our 
authorization, without having the data from that study. What--
could you talk to me a little bit about when we will see it?
    Secretary Foxx. Yes. It is going to be hard for me to 
pinpoint a timeframe, but I can tell you that we have several 
more steps, including peer review and another public input 
round to do. My hope is that we are able to get it done early 
this summer, but I don't have a more specific timeline.
    Mr. Ribble. It is important, just for you to know that it 
is going to be difficult for us to move forward, because there 
will be many of us that are going to want to have that data 
before we actually do the authorization. And so, to the degree 
that you can, you know, kind of hit on the throttle on that, it 
would be very, very helpful to us.
    Secretary Foxx. We will do our best, yes.
    Mr. Ribble. Thank you very much. With that, I yield back, 
Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Ribble. And, with that, Ms. 
Esty is recognized for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, Secretary 
Foxx. We enjoyed having you in the great State of Connecticut, 
and appreciate any time you want to do a bus, train--you may 
not want to do the train, since I know there have been troubles 
with that recently. So, again, thank you.
    I would like to associate myself with Mr. Ribble's 
comments. Again, you are a very effective and powerful 
spokesperson to build the support with the American people for 
things that have to get done, to deal with Mr. Young's question 
about the skunk. So, please, get out there as much as you can. 
And, hopefully, talk show hosts will ask you about 
transportation and not about being in an undisclosed location.
    First, I wanted to--coming from Connecticut, where we are 
really seeing the ravages of underinvestment in that first 
issue about maintaining what we have, we are seeing the cost of 
that. And I will tell you we heard recently from our department 
of transportation about the tremendous cost, and the time 
delays for them for these short-term bills. So, whatever we can 
do on this committee to work with you and get a really, true, 
serious 5- or 6-year bill is tremendously important. It is 
costing all of our districts, all of our States, lots of money 
and lots of time, and a huge aggravation. So that is number 
one.
    Having spoken with the department of transportation 
recently, they are finding complexity about Federal 
requirements and mandates that are applying to local projects, 
even though they are not part of the Federal highway 
transportation system. Is this something we can work with you 
on, on getting some exemptions on things that--they are finding 
much lower level projects, I think, because we are a small 
State, everything is really near to a highway in almost all 
parts of our State. And we are finding at least they are being 
told that they are having to comply with things.
    Secretary Foxx. Happy to work with you on that.
    Ms. Esty. OK. That would be great. So, for the Federal 
highway project requirements, are really--are adding to that 
time, that redtape.
    Now, we are well aware--we haven't talked, really, today 
about technology very much, about that last--the third piece on 
smart and effective. We are looking at this in the Committee on 
Science, Space, and Technology, as well as here. And there is a 
great deal of promise. On the other hand, there is a lot of 
concern. There is a lot of concern about privacy and, frankly, 
on safety, hijacking of cars, reprogramming of things.
    So, how can we work with you better? What is it that you 
are going to need from Congress, so we could advance towards 
this, use our existing transportation systems better and more 
effectively with more vehicles, or perhaps smarter vehicles 
that are allowing someone like my mother, who is no longer 
driving, to get back in a car and go where she needs to go?
    Secretary Foxx. Yes. Well, first of all, you are absolutely 
right. The technology opportunities that are right in front of 
us are really exciting. But we also need to be clear-eyed about 
what some of the challenges are with them. I think there are 
several things that we probably should look at. For instance, 
is there a penalty if someone interferes with an automated 
vehicle in some way? And have we taken a comprehensive look at 
our criminal codes, for instance? Those kinds of ideas.
    I think as this evolves, and evolves so quickly, the more 
we can think ahead and develop mechanisms both to safely 
integrate technology into our transportation system, first, and 
then to think about some of the ramifications of that 
technology, and ensure that we have the appropriate framework 
for those, those are the two biggest things that we can do. We 
will be happy to provide technical assistance to you, as you 
consider these issues, going forward.
    Ms. Esty. And if you would like to take a minute and just 
elaborate on the importance of long-term fix, because, really, 
truly, this is the big issue in my district.
    Secretary Foxx. On the long-term----
    Ms. Esty. Long-term bill, a permanent bill----
    Secretary Foxx. Yes, I appreciate----
    Ms. Esty [continuing]. And what you see, from your level, 
about the cost, and what we need to be doing, together.
    Secretary Foxx. I want to maybe issue a bit of a warning, 
that, again, as I said, the Highway Trust Fund is a number. 
Just getting that number so that we don't go under, doesn't 
speak to what this country actually needs. The warning is that, 
as we work and pull our hair out, and try to figure out how we 
are going to pay for something better than what we have, if we 
set that bar too low, what the American people are going to 
find is that they have paid more for the same thing.
    I think that what we have got to do is to step beyond where 
we are, and realize that folks had to step up for the 
interstate system to get built in the 1950s and 1960s. So we 
have got to go big. Go big.
    Ms. Esty. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. Now I will recognize Mr. Meadows 
for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for your comments today, and your testimony.
    I want to throw out a few things. One is, as Mr. Ribble was 
talking about with regards to truck weights and that 
determination, my understanding is there has also been some 
studies and some review, in terms of truck lengths, not as much 
with weights. Can we expect maybe a quicker response on the 
truck length question, as it--you know, my understanding is it 
reduces miles traveled, from a safety standpoint, and maybe not 
as egregious as some of the weight concerns that are out there.
    Can we look to perhaps an answer on that quicker than the 
truck weight issue?
    Secretary Foxx. Let me check in on that, and respond back 
to you, Congressman. My goal is to get this all out as quickly 
as we possibly can. The industry and the stakeholders were 
promised a lot of input in the course of pushing this report 
out. And so, we want to make sure we honor that.
    Mr. Meadows. Sure.
    Secretary Foxx. But we will move as quickly as possible. I 
want to get back to you specifically on your question.
    Mr. Meadows. All right. The other night, on a town hall, it 
was interesting, because infrastructure funding actually came 
up in my conservative district. And it is interesting that even 
a number of conservatives want to make sure that we have a 
long-term funding strategy. As Mr. Ribble said, you know, there 
is--over 60 percent of our colleagues now say, ``We want 
something long term.'' Everybody knows the path we are on now 
is not sustainable.
    In fact, many of them on the call actually said that they 
agreed with the President, that repatriation is something that 
they can agree with. And whenever you can find Democrats, 
unaffiliateds, and Republicans agreeing on anything, I want to 
really start to focus on that.
    As I sell this back home, one of the troubling aspects--and 
I notice, in the breakdown of, you know, the GROW AMERICA Act, 
is a larger increase on transit than on highways. That is very 
difficult for me to sell back in North Carolina, because, 
predominantly, most of the transit dollars have gone to six 
cities, none of which are in North Carolina. And so, the 
American people don't see the benefit, when we are increasing 
that at 75 percent versus 29 percent on surface roads.
    Is that mix something that we can work with to, hopefully, 
gain a bipartisan consensus across the country? Or is that 
something that is set in stone?
    Secretary Foxx. Let me ask a clarifying question. Is 
Charlotte still in North Carolina?
    Mr. Meadows. Yes, but it doesn't get--the majority of it. I 
know, Mr. Mayor. And if Charlotte was in there, I could 
understand it.
    Secretary Foxx. I am joking with you. Look, here is the 
perspective I would offer on the transit piece. The bill we are 
discussing, and that we will push out to you shortly, is a $478 
billion bill. Now, there is a 29-percent increase in the 
highway allocation. But the highway allocation is increased 
over a much larger baseline. So, out of a $478 billion bill, 
there is $317 billion of it is that is dedicated to highways.
    The increase in transit, percentage-wise, is greater. But 
it amounts to----
    Mr. Meadows. $115 billion----
    Secretary Foxx. Yes, $115 billion. The first point is that 
we are making substantially larger investments in our highway 
system under the bill than under transit.
    The second point gets back to a lot of the conversation we 
have had about the bottlenecking in our freight systems. In our 
Beyond Traffic survey over the next 30 years, one of the 
findings was that a lot of that congestion is happening around 
highly populated urban areas that connect into ports and so 
forth. One of the ways to relieve that congestion is to get the 
individual auto user off the road. You do that partly by having 
good transit facilities. So, from a macro standpoint, I think 
the transit investments actually help our highway system move 
more people and more freight traffic.
    I realize that that may not be the answer that you were 
looking for, but that is--from the system standpoint, I think 
those are rationales for the way we approach it.
    Mr. Meadows. All right. Thank you, Mr. Secretary. Mr. 
Chairman, I yield back.
    Mr. Shuster. Thank you very much. And, with that, I 
recognize Ms. Frankel for 5 minutes.
    Ms. Frankel. Thank you, Mr. Chair. And I welcome Mr. Foxx. 
And, as you can tell, we have a committee with outstanding 
leadership, and a real bipartisan spirit to move our economy, 
which is what modernizing transportation does. And I wanted to 
pick up on your discussion of a program--I think you called it 
FAST.
    Like you, I was a--I am a former mayor of a city called 
West Palm Beach. It is not Palm Beach; people get confused. I 
love Palm Beach, I represent Palm Beach, too. But West Palm 
Beach is a real urban city with beautiful weather. But it is 
very diverse. We have all kinds of issues. I can tell you this, 
that the number-one complaint I would get, as the mayor, where 
my phone would not stop ringing, was when the roads were 
obstructed. It was--people, whether they are going to work, 
getting their kid to school, or to baseball practice, going to 
the market, that is what aggravates people, when they could not 
move from one place to another.
    So, I like your idea of giving more flexibility, or getting 
more dollars back to the local government. Florida is a very 
big State, so I can tell you that up--the upstate, Tallahassee, 
does not know what is going on in the down part of the State, 
many times. And I am going to give you an example.
    When I became mayor, we--there was road construction going 
on. So there was an attempt to fix the roads. However, they 
kept moving the crews around from one city, one project, to 
another. And so, a project that should have maybe taken 6 
months was in its third year. And when I complained to the 
State legislator, he said to me, ``Just be grateful you are 
getting the money.'' And I could not actually get the road 
completed until I actually put a sign up that said, ``Call the 
Governor, stop calling me.'' Really.
    And so--but I do have a question attached to this comment. 
How--what in your proposal--how do you encourage the big 
picture--or, that is, regions working together--as well as 
getting the money to the local community?
    Secretary Foxx. It is an incredibly important question. 
First of all, I want to thank you for the support you have 
given to the focus on local communities.
    The problem we have--if you are living in a fast-growing 
area, is that those fast-growing areas are, more likely than 
not, to continue to be fast-growing over the next 30 years. So, 
whatever throughput you are getting in your system today, it is 
going to increase. That means you are going to have 
obstructions, and folks are going to get delayed. Travel times 
that are half an hour today could become 45 minutes tomorrow, 
could become an hour over the next 30 years.
    I think what is vitally important here is that we begin our 
thought process with what end we are trying to achieve. If the 
end is more throughput, more efficiency, more effective, more 
safety, then what you are talking about is vitally important, 
which is trying to address some of these issues at a more local 
level, even more local than the State, where we can.
    What we do through the bill is we create this FAST program, 
which puts dollars in place that areas can compete for. But the 
price of entry is that those areas have to either show how they 
are working with their suburban communities, the rural 
communities around those suburban areas, to develop a cohesive 
plan. Or, consolidate their MPOs so that they can plan 
effectively at the local level.
    We think that when we have communities that are joined at 
the hip from an economic standpoint, thinking together about 
their infrastructure, we are going to get better outcomes and 
better projects.
    Ms. Frankel. Thank you very much. And, Mr. Chair, I would 
just urge you and my colleagues also to consider putting 
something in our bill that is going to accomplish some of these 
ideas. And I thank you, and I waive back the rest of my time.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank you, Ms. Frankel. With that, Mr. Davis 
is recognized for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. It has been a very 
interesting hearing. We talked about skunks and weather in 
Florida. I am not a former mayor. And, you know, we have nice 
weather in Illinois, just not nearly as many days as you have. 
But it is a great opportunity, I think, to sit here and discuss 
issues that are a lot less partisan than some other issues that 
are being discussed in these buildings, as we speak today, Mr. 
Secretary.
    And one of the issues I came here to help solve is to 
actually have a long-term, robustly funded highway bill to 
rebuild our crumbling infrastructure, and find ways to do that. 
As a matter of fact, I have a local transportation advisory 
board, and my last guest at that advisor board meeting was your 
predecessor, former Secretary Ray LaHood, who used to represent 
a small portion of my district when he sat on this committee in 
Congress, just a few short years ago.
    And we talked about some of the options. We talked about 
some of the priorities. And I know we have addressed, you know, 
the thoughts of how do we come together, is it going to be a 
certain funding source. Those are discussions that we can have. 
But I would urge you and others to take some advice from my 
transportation advisory board, that it is about creating 
somewhat of a portfolio of funding sources, so that we are not 
just stuck on one funding source that may go up and down with 
the price of gasoline, may go up and down with CAFE standards 
that are being pushed by the Federal Government, itself, may go 
up and down with the further innovation of electric and LNG 
technology, and maybe up to the fleet levels, which could have 
a devastating impact on our gas tax revenues, and we would then 
be stuck in the same boat.
    So, those are the types of issues that I think we can 
easily work together, and I think this committee hearing showed 
that to you, too, Mr. Secretary. But also in my transportation 
advisory board, in honor of the former mayor, and my colleague, 
Ms. Frankel, I had a lot of input from my local officials, and 
they want more local--they want more local control. They want a 
dedicated funding source for more local projects, so that they 
can work together with our Federal officials and our State 
officials in Illinois.
    And, with that, more local control of transportation--now, 
this is a top priority of mine. I cosponsored the Innovation--
actually, originally sponsored the Innovation and Surface 
Transportation Act that is going to do that. And in the new 
highway bill, where you see local--where do you see local 
communities having opportunities to share in funding?
    Secretary Foxx. I think that is one of the reasons why 
having a strong, robust TIGER program continue is very 
important, because that has been an area where local 
communities have had the ability to reach for Federal funding 
directly, and get it.
    Our transit investments in New Starts and Small Starts are 
also places where local government needs to continue to have 
the Federal Government's support. And then, this FAST program 
that I was just talking about with Representative Frankel, 
which gives local communities a real shot at some dedicated 
funding to get projects done in a more localized area, is also 
a very important area.
    Finally, TIFIA, our loan products, loan portfolio, is also 
a very important tool that local communities can access. And, 
as you well know, local communities are becoming very creative 
when it comes to figuring out ways to get things done, and we 
should continue to encourage that experimentation.
    Mr. Davis. I would appreciate that consideration from your 
agency, and look forward to working with you on that.
    The Federal Government not only has a role in 
transportation, but also research. A number of the universities 
in my district participate in the University of Transportation 
Center program, whose goal--the goal is to improve education, 
and also increase competitiveness. What role do you see your 
agency playing in transportation research and technology 
development, as we move this debate forward?
    Secretary Foxx. The budget that was released last week 
actually does contain substantial amounts of research, I think 
about $1 billion in automation alone. We think that this is 
really an area that is critically important.
    Transportation historically has been a lagging sector, when 
it comes to integrating technology. With so many advances that 
are right in front of us, we think now is the time to really 
pivot very strongly towards integrating those technologies.
    One example of a way that technology is changing 
transportation is with bridges that are now being installed in 
the space of 48 or 72 hours, because they are being crafted in 
a factory someplace, they are being rolled out to the site. The 
old bridge is taken down, the new bridge is put in, within a 
very short period of time. That is a technology, an approach, 
that has just come up in the last several years. But we are 
trying to do more of that.
    Mr. Davis. Well, I would encourage you to continue to work 
with our universities. And Illinois will only take the entire 
billion, if you would let them.
    Well, thank you. I yield back the balance of my time.
    Secretary Foxx. Thank you.
    Mr. Shuster. I thank the gentleman. I now recognize Ms. 
Edwards for questions.
    Ms. Edwards. Thank you very much, Mr. Chairman. And to the 
ranking member, as well, and to you, Secretary Foxx.
    You know, I am a commuter; I live here, in the Metropolitan 
Washington area, in Maryland. Every morning I, like many of my 
constituents, wake up, you know, 5 o'clock, 6 o'clock in the 
morning. First thing we do is turn on the television, look at 
the traffic report, and then we follow it all the way until it 
is time for us to leave our homes, so that we can see that we 
have to add that extra half hour on to our commute, just to get 
to work on time.
    And sometimes, you know, you are there a half an hour 
early, and sometimes you are a half an hour late, or sometimes 
you are on time. And that is the kind of time that commuters 
are wasting all over this country, not spending time with their 
families, not getting home in time to pick the kids up from 
daycare, because we are paying attention to our commute, and 
because of the congestion.
    Yesterday I woke--of course I woke up this morning, and 
looked, like a lot of us did, and saw a report of a woman who 
was driving on the Suitland Parkway. And she was driving up 
under the beltway, and a block of concrete fell on her car, and 
she is lucky that she wasn't hurt, and that other commuters 
weren't, as well.
    And so, now, I guess, in addition to paying attention to 
the drivers on the road, that we are going to have to look up 
to make sure that concrete doesn't fall onto our cars. This is 
what our commuters are facing every single day, because the 
infrastructure, as we have said, is falling apart.
    I think, while it is true that I believe that you, as the 
Secretary and the President, have an obligation to go across 
the country and talk to the American public about why we have 
to just step up and invest in our infrastructure, it is not 
just your responsibility. It is my responsibility to go out to 
our constituents in the Fourth Congressional District and say, 
``We are going to have to pay for our infrastructure, or you 
are going to have to watch for blocks of concrete falling on 
your vehicles.''
    And I think it is going to take some combination of funding 
ideas. I don't like it, if the administration is going to 
foreclose any of those, including a gas tax and a transaction 
tax, and, you know, this sort of one-time bringing money back. 
I mean all of those things have to be on the table to fund our 
infrastructure. And we will have to explain to our constituents 
why we are doing it, why we are asking them to step up, and 
then trust that they will tell you just what they are telling 
us and you all around the country: ``We think that is OK, 
because we may not trust the way you guys spend a whole bunch 
of other money, but we want you to spend it on 
infrastructure.'' That is our responsibility, and I take it 
very seriously.
    In MAP-21, as you know--let me get back to this other--we 
authorized fundamental changes in the Federal safety oversight 
of public transportation. I authored a bill, along with Senator 
Mikulski, that passed, that provided for us to develop those 
safety standards. Today, the NTSB is issuing some emergency 
recommendations following that Metro accident a few weeks ago. 
And what they are saying is, ``We want to make sure that we 
test the ventilation systems, not just in Metro, but in systems 
all across the country.''
    What I want to know is where we are in the process of 
developing those standards for heavy rail systems, so that our 
commuters, people who use transit, can feel confident when they 
get up and go to work in the morning.
    Secretary Foxx. It is a great question. I want to say that 
I did acknowledge the incident in Maryland last night. But 
there is no excuse for that in this country. There is none. I 
think that I stand with you in doing everything I can to see us 
get a bill that takes care of that problem, but also the 
problems we have all across the country.
    On the issue of the transit safety, we have spent the time, 
from the passage of MAP-21 to now, basically developing a 
mechanism that mimics a lot of what we have learned through FAA 
on safety, a safety management system is probably the best in 
the world, quite frankly. One of the final steps we have to do, 
in terms of providing the oversight, is to push a rulemaking 
out that defines how we are going to implement what MAP-21 
says. That rulemaking is very far along within the Department. 
We hope to push it out this spring, move it through the 
interagency process and out the door as quickly as possible. 
But the urgency is not lost on us, and we will absolutely take 
a careful look at what the NTSB recommends, and you have my 
assurance we will do everything we can to prevent these 
accidents from happening.
    Ms. Edwards. Thank you, and I yield back.
    Mr. Shuster. I thank the gentlelady. And, with that, Mr. 
Graves is recognized for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. Mr. 
Secretary, we haven't had the opportunity to meet yet, but your 
reputation, universally on this committee, is excellent, and I 
look forward to the opportunity to work with you. I think 
having the perspective from the ground, as you have over the 
years, is very beneficial to your position. Again, looking 
forward to getting to know you better.
    First question pertains to the Highway Trust Fund funding 
mechanism. As you know, dating back decades, the funding 
mechanism has been based on more of a user fee-type approach. 
In GROW AMERICA--and you noted that you did put your cards on 
the table, and I certainly commend you for putting a proposal 
on the table, but it significantly deviates from that approach 
of a user fee. And potentially, long term, is it a sustainable 
funding stream?
    I am just curious about your brief comments on divorcing 
that user fee-type approach and the long-term sustainability of 
the repatriation.
    Secretary Foxx. We haven't divorced ourselves from it, yet, 
as a Nation, but we are separated. Over the last 6 years, what 
has happened is basically General Fund transfers and other 
gimmicks to get the Highway Trust Fund back to level. I want to 
make clear that I think that it hasn't been the case that, over 
the last several years, that we have actually used just gas 
taxes to fund our system.
    Having said that, I think we should look at the system, as 
we have it today, and look at the funding challenges we have 
had, as an opportunity to think differently about not only how 
we fund it, which--we have given you a specific idea there--but 
what those funds actually get put towards, so that we can build 
for the country we are becoming, and not for the country we 
were 30 years ago.
    Mr. Graves of Louisiana. Sure, and again, I appreciate the 
fact that you put something on the table. I guess the question, 
more directly, is do you believe that it, from a policy 
perspective, it makes sense for us to walk away from a user 
fee-type model?
    Secretary Foxx. I think there will always be a role for the 
gas tax. It does bring in revenue, it is just that it doesn't 
bring enough revenue to keep the Highway Trust Fund afloat.
    I also think that we have been a little rigid in how we 
think of our surface transportation system, and what we expect 
out of it. And, frankly, what revenues that the current level 
of spending gets us, given the country we are going into. So, 
instead of seeing it as a constraint, I think the opportunity 
we have right now is to look at what we need out of the system, 
and work backwards.
    What you may find is that the user fee, as we know it, is 
part of that answer, but there are other ways that we maybe 
should be looking at it, going forward. And our pay-for 
introduces one way.
    Mr. Graves of Louisiana. Thank you. Next question, bringing 
things back home, I represent the south Louisiana areas, Baton 
Rouge, included. As I recall, the Interstate 10 there, it is 
one of the only places in the Nation that the interstate drops 
down to one lane. It is an extraordinary choke point. If you 
pull up your Google map right now, I am guessing it is going to 
be all red through there.
    The State has historically not fared very well under TIGER 
grant and other discretionary grant programs. Whenever I look 
at the mandatory split of 20 percent for transit, and sometimes 
see buses passing by with two folks on them, it doesn't always 
seem to be kind of, I guess, best bang for the buck being 
invested in some cases. One, I think that our projects would 
compete very well nationally, in regard to TIGER grants; but, 
secondly, in some cases, some of the transit investments seem 
that they would be a lower priority than addressing this 
bottleneck that has implications from Houston all the way over 
to the Atlantic.
    We have one of the largest port systems in the world, huge 
freight transit. And just curious if you could comment on that.
    Secretary Foxx. You know, I have been on I-10 before, and I 
know that an area like Baton Rouge has basically doubled in 
population since Hurricane Katrina. And that has taxed the 
infrastructure systems.
    We put, I don't know, $40-plus billion into formula funds 
down to the States. So most of the highway dollars that go into 
our highway systems are given to the States, and then the 
States are charged with deciding how to spend them. If that 
highway hasn't been expanded, I think my question would be 
where is the State in this question, and why have they not 
taken advantage of the opportunity to get that done?
    Mr. Graves of Louisiana. Which--I am out of time, and 
certainly could have a much longer discussion here. But I just 
want to note that certainly some of the unique challenges, from 
an engineering perspective, that we have in Louisiana, with 
soil stabilities and others, make it much more expensive and 
difficult to do projects, waterway crossings, and other things. 
So, thank you.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank the gentleman. With that, Mr. Maloney 
from New York is recognized for 5 minutes.
    Mr. Maloney. Mr. Secretary, thank you for your time this 
morning. Last week there was a terrible accident in my 
district--excuse me, just south of my district--but that took 
the lives of several of my constituents, who live in the 
Westchester portion of my district. The accident related to 
someone being in a grade crossing. And while we don't often 
think of that as an instant that involves a problem with the 
railroad itself, the fact is that is where the overwhelming 
number of fatalities occur in rail accidents, are in grade 
crossings like the one in Valhalla, New York. Six people were 
killed in this accident: the driver and five people on the 
train.
    There are some critical Federal grant programs that relate 
to the safety of rail crossings. One we are working on in the 
PRRIA bill--and I want to thank the chairman for his--and the 
ranking member for their assistance on this, and particularly 
to the subcommittee chairman and ranking member, Mr. Denham, 
Mr. Capuano, along with Mr. Shuster, Mr. DeFazio, so that we 
can restore critical funding in the passenger rail bill for 
grade crossing safety.
    But also in the highway context, there has also been, 
historically, money for highway crossing and rail crossing 
safety money. I believe there is about $250 million in the 
President's budget.
    My concern would be that, given the number of accidents we 
have seen at grade crossings, given the simple, direct 
relationship between relocating those crossings, putting an 
underpass under it, a little bridge over it, or simply 
improving the safety measures around it, the direct link 
between that and saving people's lives, and the large number of 
grade crossings--there are 5,300 in my State alone--do you 
think that is an adequate amount of resources to address this 
problem? And could you just speak to the importance of those 
grant programs?
    Secretary Foxx. Well, first of all, Congressman, my 
condolences to the constituents in your area who either were 
victimized by this incident, or have been alarmed by what 
happened there. And my heart and prayers go out to the family 
and friends of those who died.
    Safety is the top priority of USDOT. What you are speaking 
to are two variations on how we attack this issue. One is 
making sure that we have adequate resources to do grade 
crossings, and the safety measures associated with them, as 
best we can. We do have programs in the Federal Government to 
help with that. We are also studying new technologies and other 
things that could help us advance safety on conventional grade 
crossings.
    The other question that you are raising gets back to this 
question of our infrastructure deficit, which is, you know, are 
there ways that we can grade separate to avoid those types of 
conflicts, all together. And the fact of the matter is there is 
not enough money in the system to help us do that, 
particularly--even on some of the highest danger areas.
    Mr. Maloney. So is it fair to say that the amount of money 
in the President's budget, which I believe is about $250 
million, for the rail highways crossing program is, in your 
mind, a minimum amount of money that we are required to keep 
these crossings safe, or to improve safety at that----
    Secretary Foxx. What I am saying is that I think, as far as 
that particular program, on an annual basis that would be a 
helpful amount of money to have. But I think, on the issue of 
separating grades, which comes through other programs like the 
Federal highway program or other programs in Federal rail, 
right now, we are just not spending enough money to really 
attack that problem as comprehensively as we need to.
    Mr. Maloney. Thank you for that. I also, because my time is 
limited, want to shift topics to ask you about the DOT-111 
rule. I appreciate your comments very much, that this is a top 
priority for you. I know that it has been moved over now to the 
White House.
    What is your expectation about when we can get a DOT-111 
rule to get these cars upgraded in time to do us some good? We 
had a hearing last week on this very subject, but everyone 
seems to be frustrated with the time it is taking. So I 
appreciate your remarks that it is a priority. I know you have 
done your piece of this recently. What is a realistic timeframe 
to be getting a final rule on this critical issue?
    Secretary Foxx. It is a timeframe that goes beyond my 
ownership. This is an administration-wide interagency review 
that has to occur. We are pushing as hard and as fast as we 
can. I cannot give you a timeframe, but what I can tell you is 
there is no one in my building or at the White House or 
anyplace else that is confused about how urgently I think this 
rule needs to move forward.
    Mr. Shuster. Thank you very much. Thank the gentleman. With 
that, I recognize Mr. Massie for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Secretary Foxx, thanks for coming here today. I really 
appreciate your comments, and I am reminded of why I like 
serving on this committee. We have--it is a bipartisan 
committee, and we all have the same objective, which is a 
robust transportation infrastructure. And as--being the Member 
from the district that contains the Brent Spence Bridge, I 
particularly appreciated your comments and awareness of the 
situation there.
    I am sure you used that as an example, not because it 
connects the Speaker of the House's district with the Senate 
majority leader's State, but that it has a legitimate--yes--
what, me? But that it has a legitimate Federal nexus. I mean 3 
percent of the Nation's freight goes across that bridge. There 
are two interstates that come together and cross that bridge. 
And so it is very important. It is one of those things that we 
need to work on.
    You know, we--it occurred to me, while I was sitting here, 
that half of the members of this committee weren't even here 
for MAP-21, and that is how much turnover we have had in 
Congress. So forgive us if we ask some obvious questions that 
you have had to answer before. And I have one of those 
questions. You know, our constituents send us here, and they 
expect us to question the way things have been done.
    But one of the questions I have is--and maybe you could 
help me with this--why is it that we constrain ourselves to say 
that mass transit and public transportation has to be funded 
with the Highway Trust Fund, and not, for instance, the General 
Fund? Why do we do it that way? Why was it done that way before 
we got here?
    Secretary Foxx. That is a very good question. And the 
answer is that there is a huge difference between having a 
revenue source that is recurrent, and a revenue source that 
isn't. The difference is predictability. I can tell you, having 
been a mayor, we are not spending 100 percent of the Federal 
money to get transit projects done. Usually there is a share.
    When you are going to your community and saying, ``Hey, we 
need to get the next transit project done, and we have got to 
put up 50 percent, 60 percent,'' whatever the percentage is, 
you want to have assurance that when you go to the voters to 
get those resources, that the Federal Government share is 
actually going to happen. Having the transit part of it in the 
trust fund is critical, because it provides that certainty.
    Mr. Massie. That makes sense, you know, the predictability 
of it. But it gets us away from that user fee model, which I 
think is an admirable model to follow, that the people using 
the resource are the ones paying for it. In this case, the 
highways is what I am talking about.
    And--but following up on predictability, you know, now 
that--because we have mass transit in the Highway Trust Fund, 
we are actually sometimes, this summer, jeopardizing the 
funding for some of these highway projects if we don't come up 
with a solution before then. So I think we should--things might 
have changed a little bit, maybe the Highway Trust Fund was 
more flush before inflation kicked in, and I think it is 
something maybe we should relook--we should take a look at.
    One quick question that I have--and this is much simpler, 
easier thing to solve--in the State of the Union speech, the 
President reiterated his commitment to veterans, and making 
sure that they were--had long-term employment when they 
returned to our country after serving our country. And I want 
to point out that the trucking industry has long employed 
veterans and their families. And--but recently, the FMCSA has 
required people who want to be in that industry, to get a CDL 
commercial driver's license, to receive a DOT physical from 
somebody registered with the National Registry of Certified 
Medical Examiners.
    Now, we looked into this, and it turns out, at the VA, in 
the VA, there are only 12 doctors that are certified to give 
these physicals to the veterans seeking their CDLs. Is there 
something we could do about that to make sure that veterans 
aren't left in the lurch, or don't fall through the cracks 
here?
    Secretary Foxx. Let me take a look at that, Congressman. My 
understanding is that we are doing everything we can to make it 
easier for veterans to get in these careers, the philosophy 
being that if you can drive a, you know, huge-ton vehicle in 
Afghanistan, you ought to be able to drive one here, in the 
U.S.
    And so, let me try to figure out and get down to the bottom 
of what you are talking about. But our goal is to help out.
    Mr. Massie. I appreciate that.
    Mr. Shuster. The gentleman's time has expired. Thank the 
gentleman.
    And Mr. Lipinski is recognized for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you, Secretary 
Foxx, for being here, and all the work that you do. I want to 
start by thanking--I appreciate the support that DOT has given 
to Chicago in the past few months, to the CTA for $35 million 
made available in August to the Red and Purple Line 
modernization, and the recent approval of the TIFIA loan for 
the Blue Line.
    I know the transit authority is also very appreciative of 
this funding, especially of the ridership, along with the state 
of good repair, which--that the backlog--which, right now is 
about $36.1 million in the--for all of the transit in the 
Chicago region.
    I know that, you know, we do have our debates about 
transit, and the funding for transit, but I certainly think--
just take, for example, I paid $4.65--I Metroed to get here 
this morning, which seems like it is not a really cheap fare, 
there were probably 700, 800 people on the train I was on, and 
I think everyone who drove today is probably happy those people 
weren't on the road this morning, making even more congestion. 
So I think it is very important that we do fund public transit. 
There is an important role for public transit, and it does help 
people on our roads to not have more cars on the road, causing 
more congestion and more--really, chewing up our roads more.
    Is there anything--you know, what tools do we have right 
now to help a region like Chicago, DC, over the next 10 years 
reach a state of good repair? And what tools or programs should 
we look at developing or authorizing in the next surface 
transportation reauthorization to help with this great backlog?
    Secretary Foxx. Well, thank you for your comments, 
Congressman. I agree with you, that there is a benefit to users 
of the highway system to have a strong transit system, 
particularly in highly congested areas. We are even finding, in 
some of our rural communities, where people are not as 
connected as job access, having those systems in place.
    We introduced several tools in the GROW AMERICA Act that 
speak to this issue of maintaining a state of good repair, 
including the critical infrastructure investment program that I 
talked about before, which puts billions in place specifically 
for maintenance. Within transit, specifically, we would expand 
the core capacity program, which is focused on helping some of 
our legacy systems maintain their assets in even better shape.
    Again, some of the programs that I have talked about 
before, such as TIFIA, which was used in Chicago just last 
week, to help fix up the Blue Line in that city is another tool 
that is available, as well as the TIGER program, which we would 
urge this Congress to continue. And private activity bonds, as 
well. So there are lots of tools that we expand on in the GROW 
AMERICA Act to help improve things.
    Mr. Lipinski. Very good. Thank you. A couple things I just 
want to touch on very quickly. I think it is important that we 
have a strong research title in the bill. As Ms. Esty was 
talking about, it is very important that we do all that we can 
in leveraging innovation to help to decrease the congestion on 
our roads. And I think, certainly, we can do a lot with R&D 
that will help us to do that, and other ways that we can help 
with surface transportation by doing the R&D.
    The other thing is I wanted to echo Representative 
Maloney's comments about the need for more help for--at grade 
crossings, and also for grade separations, for--to improve 
safety.
    And one last thing. I just want to ask if you could tell me 
when you anticipate FHWA's--will release the final primary 
freight network. Because, certainly, something in Chicago, as 
the hub of the Nation, with over $3 trillion of freight moving 
through, something very important to us. So is there anything 
you could tell me about that?
    Secretary Foxx. We expect to release the primary freight 
network this year. That is work that has been ongoing since 
MAP-21 was passed. We are looking forward to moving that 
through, and publishing it, and sharing it with you.
    Mr. Lipinski. Very good. Look forward to that. I yield 
back.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank the gentleman. With that, I recognize 
Governor Sanford.
    Mr. Sanford. Good to see you again, a pleasure. Thank you 
for being here, and thank you for your forbearance in working 
your way through the list of attendees. A couple quick 
questions.
    One is, you know, a basic accounting rule is to match up 
long-term liabilities with long-term assets, and vice versa, 
with regard to short-term obligations. And so, in as much as 
there have been three different conversations with the last 
three speakers on mass transit, it seems to break that rule, as 
we both know, in that a number of things have been hobbled to 
the trust fund that don't contribute to the trust funds. So we 
are--you have a mismatch, from a funding standpoint, 
irregardless of the merits of the different, you know, programs 
that have been added, whether it is with the, you know, 
alternative programs, in terms of bicycle paths, and what not, 
or, indeed, with mass transit.
    Why not go back to the simple core of that which 
contributes to the Highway Trust Fund gets money from the 
Highway Trust Fund? Why wouldn't that be a sensible idea?
    Secretary Foxx. Well, I am not sure what mechanism one 
would use to support the transit needs of this country.
    Mr. Sanford. Well, I mean, if--General Fund, I mean, 
General Fund seems to be yanked on from a lot of different 
spots, and this would go on the list.
    Secretary Foxx. We solved this problem by creating a 
transportation trust fund, calling it that, and having it 
supported, in part, by this pro-growth business tax reform.
    Mr. Sanford. But if we were to go back in time, folks that 
stood in that same spot that you are sitting in would have said 
the exact same thing about the origination of the Highway Trust 
Fund, prior to these different bells and whistles getting added 
to it.
    Secretary Foxx. I have to concern myself--and I would urge 
the committee to concern itself--with what is actually 
happening out in the country. What is happening is these choke 
points that exist on our highways are going to increase. We 
have seen examples, where you add a lane of highway to relieve 
that congestion, and it works for a year or two, and all of a 
sudden population comes in, and you are in the same place you 
were.
    So, if we want to be on that treadmill, I think it is going 
to mean more traffic, longer travel times. That is not to say 
that we don't need strong investment in our highways. We do----
    Mr. Sanford. Well, why not more experimentation there in 
alternate pricing? I think, if I am not mistaken, that is San 
Diego. And I know a number of other countries around the globe 
have gone to, basically, premium pricing at premium travel 
times for additional capacity. Not existing capacity, but 
additional capacity. And, in some cases, it has worked to 
alleviate travel, because, you know, you could pick up your 
groceries, you know, at 5 o'clock, or you could pick them up 
earlier or after, and there is a real, you know, difference 
there, in terms of traffic load. Why not more experimentation 
and more flexibility with regard to premium pricing?
    Secretary Foxx. On that score, we agree with you, that 
experimentation should be an option. But it should be an option 
at the local level. The Department should have a role in 
deciding whether that is an appropriate use of, for example, 
tolling.
    We don't purport to toll every single stretch of highway 
across the country. But if a given Governor wants to experiment 
with it, we think they ought to at least be able to make their 
case.
    Mr. Sanford. Two quick--I see I am running short. One 
question not related to the Highway Trust Fund bill is I know 
we have been waiting on a DOT report with regard to truck 
weights and--I guess it was around November. Where are we on 
that? When can we expect to actually see that report?
    Secretary Foxx. We are pushing as hard as we can. As I said 
before, we promised the stakeholders on all sides of this issue 
very robust stress-testing that they would be involved in, 
including public input. So, we still have steps to go there. 
But my hope is we get it done as soon as possible.
    Mr. Sanford. Why not more in the way of devolution? Some 
people have said the way that you solve our highway problem is 
more in the way of devolution back to States, because the 
current model, in essence, favors old infrastructure over new. 
It favors, you know, areas that maybe aren't growing as much as 
other parts of the country are. Why not more experimentation on 
that front, as well?
    Secretary Foxx. Yes. I think we have got a bigger problem 
than a highway problem. We have got a mobility problem. And the 
mobility problem has lots of dimensions to it that include 
highways.
    I don't think we can go back to 1956. I think that would be 
a mistake, because the country is moving in a very different 
direction. The Millennials that are now more populous than the 
Baby Boomers----
    Mr. Sanford. Can I really interrupt? I see I have got 12 
seconds.
    Secretary Foxx. Yes.
    Mr. Sanford. One last question. You may have to get it 
submitted in writing.
    Secretary Foxx. Yes.
    Mr. Sanford. But just--you know, one other way of 
stretching, obviously, highway trust--this ties back to Davis-
Bacon. As we all know, there is a premium on cost of 
construction on Federal projects versus not. Why not use that 
as another way of stretching Highway Trust Fund dollars?
    Secretary Foxx. Well, if I can answer--OK. I would like to 
finish what I was saying----
    Mr. Sanford. OK, all right.
    Secretary Foxx [continuing]. Which was that Millennials are 
moving an entirely different way. They are moving closer in. 
They are using bikes and other things. They are sharing cars, 
using Zipcars, and stuff. And I don't think we should plan for 
a system that was 1956. We need to plan for 2045. So that is on 
that point.
    On the other points, on labor, look, I think we firmly 
believe in the American worker having a shot at jobs that build 
up our country, and we don't yield from that.
    Mr. Sanford. Thank you, again, for your time.
    Secretary Foxx. Thank you.
    Mr. Shuster. Thank you, Mr. Sanford. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Mr. Secretary, welcome 
back. It is nice to see you.
    You mentioned in your presentation about the tremendous 
growth in the Southwest. I represent Las Vegas, as you know, so 
I can attest to that. We have got 2 million people, and over 42 
million tourists who come there every year. We want to invite 
you out to see for yourself the challenges we face. I am sure 
my colleague, Mr. Hardy, and I would be glad to host you, if 
you will come and see us.
    It is not news to you, either, that I am going to keep 
pushing for I-11, and for a reopening of Amtrak between Las 
Vegas and Los Angeles. But today my questions are a little 
different.
    I want to ask you about autonomous vehicles. I know you 
recently rode in the Google car in southern California. Nevada 
is one of the few States that has enacted legislation to allow 
for the testing and driving of automatic vehicles. But I don't 
want us to get behind the curve, like the FAA has done with 
autonomous aerial vehicles, where the industry for drones is so 
far ahead of Government that we are losing out to other 
countries.
    So, I would ask you to kind of address what you see as 
Department of Transportation's role, moving forward with that 
technology.
    And my second question--and this is something you also 
acknowledge in your GROW AMERICA proposal--has to do with the 
importance of travel and tourism. Certainly, those agencies, 
like convention authorities that oversee travel and tourism, 
are greatly affected by the transportation decisions, but they 
don't play much of a role in the whole planning process. So I 
wonder if you might address how we could do a better job of 
incorporating their needs and their expertise in that process.
    Secretary Foxx. So, two things. We take a very strong lean-
in position on technology in the GROW AMERICA Act. I think the 
President's budget speaks to this, with significant investments 
in automation. Some of that is about understanding and working 
with industry to develop the pathway for these technologies to 
find their way into the marketplace.
    But some of it also has to do with trying to start 
addressing some of the unknowns around, you know, how connected 
vehicles actually connect to each other, working with industry 
to come up with ways to make that a reality. There are examples 
of cars like the Google car, that is autonomous, that isn't 
connected, doesn't need the connection to function. We have got 
to develop the same kind of apparatuses that States like 
California have begun to do, and we need to think about the 
Federal role there. And that is what some of these investments 
will help us do.
    On your other question about----
    Ms. Titus. Travel and tourism?
    Secretary Foxx [continuing]. Travel and tourism, there are 
several places where our bill, I think, helps. One of the most 
important ones is that a lot of the idea generation for 
projects comes at the local and State level. The more we can 
connect the inputs into that process to economic growth and 
economic development, the more output we are going to get, in 
terms of supporting travel and tourism in other critical parts 
of our economy.
    So, this idea of encouraging local communities to form MPO 
systems that are regional in nature, that actually have 
resources to get projects done, and that bring in not only the 
urban core, but the suburban and the rural areas around them to 
work together and think together about how they want to define 
themselves, I think that is an opportunity for the travel and 
tourism industry to play a real role in getting real things 
done on the ground.
    Ms. Titus. Well, I am glad to hear you say that, because so 
often the great bulk of the Federal dollars go to State 
agencies to be distributed. Mr. Davis and I have a bipartisan 
bill that we introduced again this year to bring more of that 
decisionmaking to the local level, which would include 
stakeholders from the business community, tourism, and other 
bodies like that. So, if you take a look at it, we would 
appreciate it.
    Secretary Foxx. You got it.
    Ms. Titus. Thank you.
    Secretary Foxx. Thank you.
    Ms. Titus. Yield back.
    Mr. Shuster. Thank the gentlelady. And, with that, I 
recognize Mrs. Comstock, 5 minutes.
    Mrs. Comstock. Thank you, Mr. Chairman. Good morning, Mr. 
Secretary. Thank you for your patience.
    I wanted to return to the urgent report that was issued 
today from the NTSB on the Metro situation that, obviously, 
impacts a lot of my constituents. And I wanted to ask you, 
given--you really have sort of an army of Davids right in your 
own building who are experts on the Metro, because they ride it 
every day, like my constituents. And they are also involved in 
transportation policy.
    So I kind of wanted to ask you, you know, on a human level, 
and on just sort of an expertise level, did you have anyone 
within the agency come to you and say, ``Hey, boss, this--you 
know, I was there,'' or, ``I know people who were there,'' or, 
``I ride the Metro every day, and we need to--you know, this 
was done wrong. One, two''--you know, X, Y, or Z. Did you have 
anybody kind of come to you and give you that firsthand and 
bend your ear on that?
    Secretary Foxx. We have employees that use the Metro system 
that were impacted by the incident that happened recently here. 
And we do have a role in doing a deep dive into this, 
supporting the NTSB as they----
    Mrs. Comstock. Right.
    Secretary Foxx [continuing]. Look at it. We--I have not had 
a person come to me with a technical explanation for what 
happened, based on their personal observations. But we 
recognize that, if there is anything within our sphere of 
influence that we can do following this incident to attack it 
so that it doesn't happen again here or elsewhere in the 
country, we will do it. We will absolutely do it.
    Mrs. Comstock. OK. And given--you know, the recommendations 
came out today, and I appreciate that. But they are listed as 
urgent, but it is a month after the incident. So, you know, I 
think you can understand people might feel concerned about 
that. And I certainly understand you want to go through a 
process.
    But I was wondering, in light of, you know, Delegate 
Norton's comments, and Congresswoman Edwards, if you might be 
able to agree to maybe go with some of us and just go on Metro 
and, in light of these recommendations, maybe have some of your 
experts come with us who kind of look at these things, and are 
really the experts on transit, and take a ride, sort of a walk-
through/ride-through, with these recommendations in mind, and 
just have, you know, those of us who can, you know, maybe do 
something quickly, if we identify it, instead of waiting for 
some of these reports that, I know when we met, they told us it 
might be 6 months, and a lot of the things that we just need to 
have done immediately. So if we might be able to find a date to 
do that with some of my colleagues, I----
    Secretary Foxx. I would be happy to.
    Mrs. Comstock. Great. I would really appreciate it, and 
thank you for--on that.
    And I wanted to also mention I had been able to watch your 
appearance with--I guess it was on a Google chat, or--with Mr. 
Schmidt there, talking about transportation, and the vision 
that you have. And one of the things that captured my attention 
was when Google talked about, you know, the private bus system 
that they have, and how they utilize that, and, apparently, how 
they run from 5 a.m. to 10 a.m. They go all around and pick up 
their employees, they--obviously, they are all wired in on 
those buses. And it is an entirely private system.
    And I know I have Capital One that serves in my district, 
and they do a lot--probably not--maybe not as innovative as 
Google, but they have a lot of that going on between the 
Richmond office and their Tyson's Corner office, and they bring 
people to the Metros, and they do that. Do you have other--an 
inventory of other kind of private uses here? Because this is 
entirely private, as far as I know, no public money here.
    But what can we do to encourage those kind of innovative 
things? You know, people are working on those buses. They are 
there with their colleagues, probably a lot of business goes 
on. It certainly looks like a win-win for Google; I know it is 
for Capital One. How can we expand upon that, and help our 
transit situation--kind of combines, you know, our technology 
that we can all use, while we are on those buses? And what 
additional things can we do in that area?
    Secretary Foxx. I will ask my team to survey what we know 
about that. It is not completely unlike what many universities 
do. We do have at least some parallels there. But it is a 
phenomenon that is interesting. And I will make sure we share 
with you what we know.
    Mrs. Comstock. OK. And I know there have been numerous 
articles written about it that I saw, and it really did look 
like a great way to, you know, get people in to work. And I 
know in our areas where they have HOT lanes, they would be able 
to use the HOT lanes doing that, so they would all have a 
faster commute. But the flexibility that they use really seemed 
very--you know, certainly probably can work a lot quicker than 
some of the other public systems that we might be waiting to 
get online. And so, if this is a good way we can complement 
things, I would really like to see what more we can do on that.
    And, Mr. Chairman, I hope we can maybe look at that more, 
and see what we might be able to do in that arena, you know, 
all across the country with a lot of our businesses.
    Mr. Hardy [presiding]. The gentlelady's time has expired. I 
would like to turn 5 minutes over to Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it. Mr. 
Secretary Foxx, I appreciate you being here, and enlivening 
our--enlarging our knowledge on transportation and what is 
going on in your world.
    I am a former mayor, as well. Not as large of a town as 
you, a small town in east Texas. But we do have a lot of 
infrastructure there, and highways. And I guess one of the 
biggest things that I have noticed, that--we want to ensure the 
highway safety and the public safety, that it should be top 
priority, and I know you agree with that.
    But we have a number, or a percentage of our Highway Trust 
Fund, precious dollars, that are going to--that are being spent 
on beautification, bike trails, and nonessential things. And I 
think, as of the passage of MAP-21 highway bill, took some of 
the first steps towards releasing States from mandating 
spending on these nonessential trails, beautification, et 
cetera, and other projects.
    But in my Texas district, which is part of Houston, part of 
Harris County, but another eight rural counties, we have 
bridges that are, literally, falling apart. And it is 
distressing to the folks there, when we see a large bike 
project that is going on, 10 miles of bike trails, millions of 
dollars being spent, when we can't seem to get the bridges 
repaired, which are endangering the public.
    How much of a shift have you seen in States as to 
redirecting some of these funds away from these enhancement 
projects, and going to critical infrastructure like bridge 
work? That is my first question. If you will answer that one, I 
appreciate it.
    Secretary Foxx. I would like to survey and come back to you 
with more specifics. But just my casual observation, off the 
top of my head, is that I think States and local governments 
are struggling with the growth. All of them are struggling with 
it in different ways. Some of them, part of the response is to 
mix up what they are doing. And that is why you start to see 
some of these investments in the bike/ped area.
    Coincidentally, bike-pedestrian is the only area within 
what we cover at DOT where we have seen an increase in 
fatalities and accidents over the last 4 years, and I think 
that may be driving some of those investments, as well. I 
happen to think those are good investments, but I understand 
the point.
    Here is why we are here, though. We are here because, over 
the many years, we just haven't taken care of what we have, 
period. It is like having math homework that we haven't done 
for the last month. Now we have got a bunch of it to do, and 
there is only so much time to get it done. So I think this 
accumulation of short-term thinking and underinvestment is 
starting to hit us, and we are starting to look at stuff we 
have been doing, and saying, ``Why are we doing this?''
    But I think bike-pedestrian investments, the small amount 
that we are putting--in the Federal Government--into those 
things is actually worth it.
    Mr. Babin. OK, thank you. And another thing, would you 
support further changes that would allow States to redirect 
some funds from the transit spending towards critical 
infrastructure repair?
    Secretary Foxx. I think the premise is that the transit 
investments aren't critical. If you go up to, for instance, 
Chicago and New York City, where they have got these subway 
systems that are aging and old and falling apart, if that 
system falls apart, our economy is going to fall apart.
    I think that we have critical investments that need to be 
made in both areas, quite frankly.
    Mr. Babin. There is just not enough funding.
    Secretary Foxx. Exactly. And if we pass the GROW AMERICA 
Act, we will have it.
    Mr. Babin. Thank you, Mr. Chairman. I will yield back my 
time.
    Mr. Hardy. The gentleman yields back. I would like to 
provide 5 minutes for myself, if we may. Thank you, Mr. 
Secretary, for being here.
    Secretary Foxx. Thank you.
    Mr. Hardy. As the--my colleague from Nevada recently spoke, 
we share common exercise. We would like to see the I-11 
corridor taken care of.
    In your statement you mentioned that the States and local 
governments should work together, and should be rewarded for 
that, coordinating with each other and making decisions with 
their neighboring governments. That--prioritizing funding for 
freight projects that is essential benefit to a State's 
economy.
    I am proud to say that Nevada has been doing that for quite 
some time, particularly with Arizona and Idaho on the Idaho--on 
the I-11 corridor. And, as you may or may not know, Nevada--Las 
Vegas, and Phoenix are the only two major cities that don't 
have a north-south corridor. I was wondering what kind of--or 
could you--if you elaborate on the Federal Government, how they 
would be willing to help support locals in that coordination, 
or that coordinate----
    Secretary Foxx. Yes. I think it gets back to the FAST 
program we have been talking about, where you have your MPO 
system that would actually be empowered to do more, in terms of 
actually delivering projects. The price for that would be you 
would have to think regionally. It can't just be a city, it has 
to be the surrounding area, and the rural areas surrounding it. 
But we would actually provide not only the decisionmaking 
mechanism, but actually resources to help get those projects 
done, in addition to increasing the amount of money that the 
State gets.
    So much of where the dollars flow is at the State level. A 
lot of these decisions are actually being made at the State 
level, not at the Federal level, to either fund or not fund 
things. What we are trying to do with this bill is we are 
trying to put enough money in the system in enough different 
ways for it to flow, that we get more projects done, and there 
is more flexibility to get those projects done.
    Mr. Hardy. You know, as the--looking at the State of 
Nevada, in particular, we have been dealing with this--I was on 
the public works regional transportation commission for a 
number of years, trying to deal with this situation. Nevada, 
Arizona, Utah, and other places don't get looked at the same 
way as the congestion we have out here, because we have Federal 
lands that are definitely between the two city corridors.
    And so, unless you have ever had to spend all day--
sometimes close to 16 hours in traffic--driving from L.A. to 
Las Vegas, you have never experienced traffic like you have 
here. You know, at least you get off it. You could--from 11 to 
16 hours. This has been a challenge, many times a year, for 
many years. And so we get looked at as not a challenge in 
traffic transportation, because we don't have that populous 
between the two.
    But this is a major freight corridor for Nevada and Utah, 
and for the Midwest. We come right out of the Long Beach area, 
the I-15 corridor. So it is congested, and I think that I-11 
corridor will help solve that congestion, so people can go 
across 40. This 15 corridor takes it all the way to the I-80 
and I-70 corridors to go across the Nation. So I would like to 
just make you aware of that. And thank you for your time.
    Secretary Foxx. Thank you.
    Mr. Hardy. I would like to yield 5 minutes to Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman. Thank you, Secretary Foxx, 
for being here. I have got three points I want to hit on.
    Secretary Foxx. Sure.
    Mr. Gibbs. First, in your testimony you talk about 
examples--I mean unnecessarily long review processes. That 
could be NEPA studies and all that. And you don't have to 
answer this part today, but can you give us maybe--the 
committee--some specific examples of things we could do in the 
next highway bill? And then what we did in MAP-21 to make the 
next highway bill better, and that streamlining process?
    And the second part, second part of my question, is the 
GROW AMERICA Act. I think you just made a comment it is not 
going to go about--we--GROW AMERICA Act will have the finances.
    Secretary Foxx. Yes.
    Mr. Gibbs. Well, I am going to respectfully disagree. First 
of all, the President's proposed funding is not repatriation, 
it is a new tax, because it is 14 percent on accrued profits of 
American companies overseas, and 19 percent moving forward. And 
so I don't know how you would actually enforce that, because I 
think you actually have a consequence that--I don't know if--
why they haven't thought of this. I mean businesses will 
probably be more likely to move their headquarters out of the 
United States, since--and more--secondly, there will probably 
be more inversions because--of more foreign companies buying 
our American businesses. So I don't think that is a viable 
solution.
    But I think repatriation, if it is done right, is a viable 
solution. I know Senators Paul and Boxer have a proposal out 
there. I have been saying we ought to just say, ``If you bring 
the money back, you pay 5 percent, and it all goes in the 
Highway Trust Fund, and you do whatever you want with the other 
95 percent.'' There is really only two things they can do with 
it: invest in their businesses and grow jobs, or--pay 
dividends. You know, I think everybody wins. Don't put all the 
strings attached.
    But I think repatriation ought to be on the table as part 
of the solution. Maybe not the total solution, but part of the 
solution.
    But I guess my question on this part to you, what is it 
that you or the administration doesn't like about that type 
of--so that is repatriation, and not a new tax.
    Secretary Foxx. I agree with you that our proposal is not 
repatriation. Let me try to explain how ours works, and get--in 
response to your question.
    Right now, if a company has untaxed earnings overseas, to 
bring that back they are going to be taxed at a 35 percent----
    Mr. Gibbs. That is correct, yes.
    Secretary Foxx. What our proposal actually does is it 
actually imposes a one-time tax of 14 percent, which is a 21-
percent reduction off of what they would have been taxed, had 
they just brought it overseas today, from----
    Mr. Gibbs. But--correct me if I am wrong--it is a tax on 
all their accrued profits, even if they don't bring it back, 
right?
    Secretary Foxx. That is right.
    Mr. Gibbs. That is right. So it is a new tax.
    Secretary Foxx. But what it does is it clears the field. It 
is--they can bring it back, they can not bring it back----
    Mr. Gibbs. Well, I think they can bring it back to 5 or 6 
percent, and they are more likely to do that.
    Secretary Foxx. Well, it gets done one time. Then, going 
forward--and that, the 14 percent, is how we pay for our bill. 
The 19 percent is a go-forward on future earnings overseas, and 
there is actually a fairly complicated way that they reduce 
the----
    Mr. Gibbs. OK, I got to move on, but----
    Secretary Foxx. Yes.
    Mr. Gibbs [continuing]. I think the unintended consequence 
could be more inversions, and----
    Secretary Foxx. This is an approach that Chairman Camp 
introduced last year as a proposal. It is one that has been 
introduced on a bipartisan basis. There are differences in the 
rate, but it is basically the same approach.
    Mr. Gibbs. Well, I think that part is a new tax--OK, we 
will disagree, we will disagree on that.
    Third-part question I want to get here in my last 90 
seconds is I hear from a lot of my truckers of the FMCSA and 
the CSA program, how they get dinged if they--their records if 
they have an accident and it is not their fault, somebody rear-
ends them, you know, clearly there is accidents that, clearly, 
sometimes the other person's fault, and not--but it doesn't 
matter on--for their records. And, you know, it puts them--adds 
cost, their insurance rates can go up, all kinds of problems. 
Can add to the cost of their customers they are trying to 
serve, because they want cleaner records.
    What is your thoughts on that? It seems like, to me, that 
is not right.
    Secretary Foxx. We are taking a look at this question. I 
have heard the same concerns. On the other end of the scale, 
there is also some advantage to transparency and folks knowing 
what they are getting when they pay for a certain operator to 
do a service. And so, we are trying to figure out what the 
right balance is, and I promise you we are taking a look at it.
    Mr. Gibbs. And I think, to also--to build on it a little 
bit more, it has broken down in categories. And I have one 
trucking firm that moved up--which way--in a whole category. 
Even though he had an impeccable record, he got dinged because 
he--a different category, and it was just--it is not working. I 
guess that is how--so I yield back my time. Thank you.
    Mr. Shuster. Thank the gentleman. And, with that, Mr. 
Woodall has just had a timely entrance. Mr. Rouzer, I will have 
to put you on hold. Mr. Woodall is recognized for 5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman. Secretary Foxx, I 
appreciate your waiting on those of us who are running behind.
    I know Mr. Massie talked to you earlier about certified 
medical examiners, and the impact on veterans. I wanted to ask 
you about the impact on other folks. I know when we passed 
SAFETEA-LU here, when you promulgated your regulations, driver 
safety, road safety, passenger safety, all of those safety 
issues were job one.
    But we have a number of family-owned trucking companies in 
my district, as you would imagine. I have one constituent, his 
name is James Cooper, and he--his family has--for generations, 
has owned Cooper Trucking. But he can't go to his family 
physician, because his family physician didn't decide to go 
through the process to become a member of the registry. And so, 
rather than going to the physician who has known him his entire 
life, knows all of his frailties and all of his strengths, he 
had to go to a chiropractor that he had never met before, no 
knowledge of his history.
    And since our common goal is certifying safety, I guess my 
question to you is, have we achieved that goal with the 
registry? Because it seems counterintuitive to me that sending 
someone to a doctor they have never seen before, but who has 
taken the 3-hour class to be a part of the registry, rather 
than going to that family physician they have seen for 50 
years, may actually bring us a less desirable result, rather 
than a more desirable result. Could you speak to that?
    Secretary Foxx. As I said before, this is something I need 
to go back to our team and drill down on. If your friend is a 
veteran, and is trying to get the work driving trucks, our 
posture has been to try to help make that happen as seamlessly 
as possible. So, let me just go back to the team and give you a 
written response, if you don't mind.
    Mr. Woodall. I don't. But--though I may be asking a 
slightly different question. You know, when I think about 
SAFETEA-LU in 2005, I think about folks trying to deal with 
fraud in medical certifications, and saying, ``In order to 
prevent fraud, we are going to make sure everybody, every 
physician, is certified, becomes a part of this registry.'' The 
constituent I am thinking of is not a veteran, just a rank-and-
file owner-operator of a small trucking company. And yet, in 
the name of safety, because of the laws we have written, the 
regulations you have promulgated, he cannot go to his physician 
to get the medical certification, he has to go to someone who 
knows nothing about his frailties.
    And we did that, I suppose--I wasn't here at the time, you 
were not in your job at the time--we did that, I suppose, to 
prevent fraud from occurring in the industry, where folks were 
just cycling through medical certifications, one right after 
the other. It strikes me we have a lot of different tools in 
our arsenal to prevent that fraud. We could pass a statute that 
says, ``If DOT catches you in a fraudulent certification, we 
are going to take away all your Medicare and Medicaid 
eligibility for the next 20 years.'' We could stop that 
together.
    This was our effort at doing that. But I cannot conceive of 
a scenario where, being certified by someone who does not know 
my conditions and my history, is going to lead to a better 
result than being certified for someone who does know that 
history. I know you are constrained by statute in many ways 
there, but I would welcome the opportunity to work with you.
    Or, if what you will come back and tell me, after you and 
your team have reviewed it, is that this has a material impact 
on passenger safety, road safety, operator safety, I would like 
to hear that determination, as well. But my guess is, in our 
effort to do better, we may actually be creating some results 
that are less safe, unintended consequences that perhaps we 
could work together to repair.
    Secretary Foxx. I look forward to that, and I look forward 
to--and I appreciate your openness to hearing us out on kind of 
where it comes from, and how it works.
    Also, I think it speaks to the broader set of issues. You 
all are going to have a massive task in front of you in writing 
a highway bill. I would just urge you that, when there are 
questions or concerns going--on a forward-going basis, we want 
to be open to you for technical assistance, because sometimes 
we can catch issues before they become issues in law. So----
    Mr. Woodall. I appreciate that. I look forward to that 
partnership, as well.
    Mr. Chairman, I yield back.
    Mr. Shuster. Thank you very much. With that, Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman. Mr. Secretary, great 
to have you here.
    Secretary Foxx. Thank you.
    Mr. Rouzer. I am a fellow North Carolinian, as you know, 
representing southeastern North Carolina. And on behalf of the 
rest of the North Carolina delegation, we are proud to have you 
where you are.
    Secretary Foxx. Thank you.
    Mr. Rouzer. And I appreciate you coming before the 
committee.
    In my district I have got I-95 and I-40 that cut right 
through the middle of it. And in my home county of Johnston 
County, if you ride through I-95 and you are asleep, you will 
be awake after you get through. That part of I-95 is probably 
one of the worst portions of 95 through the State of North 
Carolina.
    And, of course, one of the things that our local business 
owners and others in the area probably detest more than 
anything is the idea of tolling. And--but, obviously, we have a 
great need, and significant shortfall in the Highway Trust 
Fund, et cetera.
    One of the things I have always wondered about when I 
served in the State legislature I chaired our Regulatory Reform 
Committee. You know, rules and regulations significantly add to 
the time delay and the cost, et cetera, you know, for our 
infrastructure system. In fact, I would bet just about 
everything I have ever saved in my life on it, that if you had 
the rules and regulations in place--if you had in place what we 
have today--back when we were putting in the Interstate Highway 
System, you know, years ago, you couldn't even do it. The rules 
and regulations are so onerous today that we wouldn't have the 
Interstate Highway System that we have in place. And, 
obviously, that has been a great benefit to the growth of this 
economy over a number of decades, and really helped to make 
America the economic powerhouse superpower that it is.
    So that, you know, as a backdrop, are we doing anything, 
are we looking at all these rules and regulations? Because it 
just seems to me that, you know, that is a huge component of 
the cost.
    Secretary Foxx. Short answer is yes. This is actually an 
area that I think President Obama is much more focused on than 
I think he is given credit for, because he has really forced 
all of the agencies to do retrospective regulatory reviews to 
look at the pile of regulations that are out there, and to cut 
away those that are unnecessary.
    We were talking about trucks before. One of the ones that 
we have issued that is a paper reduction effort is the DVIR 
rule in trucking, which--you know, before we issued this, if 
you drove a truck you had to inspect the truck before you took 
a trip, inspect it after you took a trip. And on both ends you 
had to send us paper, or file paper that would say that the 
truck was OK. What we have done is we have eliminated that 
requirement when the truck meets standard. That is saving the 
trucking industry $1.7 billion annually. And those types of 
things are things we are looking to do more of.
    Now, there are some regulations that we think are necessary 
to protect the environment, let's say, or something else that 
is vital. But we are continuing to work towards reducing 
redtape where we can.
    Mr. Rouzer. Well, I just know, from, you know, talking to 
our transportation experts back home, it is just amazing to me 
how long it takes, from beginning to end, you know, to make 
these improvements, you know, funding notwithstanding. And I 
just really encourage you--clearly, there is a balance. We all 
want to protect the environment, we all care about all of God's 
creatures.
    I would also suggest, though, that, you know, in places 
like China and elsewhere, when they want to build a road, they 
just build a road. And those are the folks that we are 
competing against. And so, you know, we have got to have a good 
balance there.
    One other thing that came to mind. I was told this 
statistic not long ago, that if you have a vehicle and you are 
getting an average of 25 miles per gallon, and you travel about 
10,000 miles per year, you are basically only paying roughly 
$83--$81--$83 or so in Federal gas tax.
    Now, outside of tolling, are there some other ideas, in 
terms of financing? Particularly, I am curious about innovative 
financing tools that perhaps other States are doing, where we 
can help them, or anything that we could adopt.
    Secretary Foxx. That is a great question, and it gets us 
into a discussion of the difference between funding and 
financing.
    When we use public-private partnerships, let's say, there 
are lots of different tools. Existing tax revenues can be used 
to support public-private partnerships. Tolling is one example, 
development-oriented revenues that bring in additional tax 
revenues on new development that happened because of 
transportation assets in place, using those revenues to plow 
and repay the cost of that asset. These things are tools that 
local and State governments have. We can do more at the Federal 
level to help.
    But to your point on redtape, I think that we have got a 
huge opportunity, as we work to reduce redtape and getting 
projects done. I share with you the frustration of projects 
taking too long. I think we can shorten the time. We have, and 
we can do more.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Secretary. Appreciate you--it 
has been 3 hours now. We didn't know it was going to go this 
long, but there was tremendous interest in being here, asking 
you questions today. I think we have almost all--we only have 
59 Members. Almost every Member that was here today 
participated in some way. So, again, really appreciate you 
taking the time and answering the questions.
    You and I are going to continue this conversation on 
Twitter. Last time we did a Twitter town hall on WRRDA, and we 
had 3.5 million viewers, and 1 million unique visitors. I am 
not sure if that means they are aliens, but I am not a Twitter 
guy. So I am going to stumble and bumble through this, but I 
look forward to doing that with you. Again, thank you so much 
for being here today.
    And I ask unanimous consent the record of today's hearing 
remain open until such time as our witness has brought answers 
to any questions that may be submitted to him in writing, and 
unanimous consent that the record remain open for 15 days for 
additional comments and information submitted by Members or the 
witness to be included in today's record.
    [No response.]
    Mr. Shuster. Without objection, so ordered. And the 
committee is adjourned.
    [Whereupon, at 12:59 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                           [all]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
